App.la
SUMMARY ORDER OF THE SECOND CIRCUIT
(MARCH 5, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
IN RE: LAWRENCE R. MULLIGAN,
RENEE T. MULLIGAN,
Debtors.

LAWRENCE R. MULLIGAN,
DebtorAppellant.
v.

BRUCE K. JALBERT, PAMELA JALBERT,
Appellees.
No: 18-1657
Appeal from a May 3, 2018 order of the
United States District Court for the
District of Connecticut (Meyer, J.)
Before: John M. WALKER, Jr.,
Debra Ann LIVINGSTON, Circuit Judges.,
Katherine Polk FAILLA, District Judge*.

* Judge Katherine Polk Failla, of the United States District Court
for the Southern District of New York, sitting by designation

App.2a
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
order of the district court is AFFIRMED.
Debtor-Appellant Lawrence Mulligan (“Mulligan”),
proceeding pro se, appeals a judgment of the United
States District Court for the District of Connecticut
(Meyer, J.) affirming the bankruptcy court’s earlier
judgment that a debt owed by Mulligan to Appellees
Bruce and Pamela Jalbert (“The Jalberts”) was not
dischargeable in bankruptcy pursuant to 11 U.S.C.
§ 523(a)(4). The bankruptcy court held, and the district
court agreed, that Mulligan’s debt was not dischargeable because it was incurred by conduct constituting
defalcation while Mulligan acted in a fiduciary capa­
city, basing their decisions on a state court decision
finding Mulligan liable to the Jalberts for, inter alia,
conversion and statutory theft. We assume the parties’
familiarity with the underlying facts, the procedural
history of the case, and the issues on appeal.
Background
In 2008, the Jalberts filed a complaint against
Mulligan in Connecticut state court in connection with
Mulligan’s representation of them in a property
matter. In 2010, while that action was pending, Mul­
ligan and his wife filed for relief under the United
States Bankruptcy Code. The Jalberts initiated an
adversary proceeding in bankruptcy court and argued
that Mulligan’s debt to them was not dischargeable in
bankruptcy pursuant to 11 U.S.C. § 523(a)(4). At a
June 2010 bankruptcy court hearing, the parties agreed
to lift the automatic stay and litigate the Jalberts’
state court lawsuit. Accordingly, in November 2010,
the Jalberts filed an amended complaint in the state

App.3a
court action alleging conversion, statutory theft, viola­
tion of the Connecticut Unfair Trade Practices Act,
fraud, and false pretenses. In June 2013, the state
court found in favor of the Jalberts on all counts except
fraud.
The state court made the following factual findings.
Mulligan acted as the Jalberts’ attorney between 1995
and 2008. In 2005, the Jalberts asked Mulligan to
represent them concerning an easement on their land,
and the parties agreed that, in the event the Jalberts’
title insurance company would not pay for the needed
representation, the Jalberts would compensate Mulli­
gan with construction services rather than cash. Bruce
Jalbert provided Mulligan with construction work
valued at $84,750 between 2005 and 2007. In 2006, a
company sued the Jalberts to obtain use of the ease­
ment. Mulligan contacted the Jalberts’ title insurance
company and told the Jalberts that it would not pro­
vide them with representation. However, in March
2007, Mulligan received a letter from the title insur­
ance company informing him that it had in fact
already hired representation for the Jalberts and
would not compensate any other counsel. Mulligan did
not show that letter to the Jalberts, instead telling
them that he would continue to represent them and
that the title company, which had now agreed to pay
for the Jalberts’ representation, had merely hired an
attorney to assist him.
In May 2007, Mulligan asked the Jalberts for
$85,000 in order to show the title company that the
Jalberts had paid for his work, explaining that he
could not make a claim for payment based on the
construction services that he had received. The Jalberts
transferred the money with the understanding that it

App.4a
would be returned following settlement of the easement
litigation. The attorney hired by the title company
then negotiated a settlement in which the Jalberts
received $100,000; the Jalberts gave Mulligan $50,000
from that sum in compensation for the legal work that
they believed he had done for them. On the basis of
these facts, the state court found that Mulligan had
“intentionally and wrongfully” obtained $135,000 from
the Jalberts, having “intentionally misled them con­
cerning the $85,000 payment” and “intentionally misled
[them] into believing that his services were needed
. . . , and that he was entitled to be paid therefor,
causing them also to agree that he would receive
$50,000 from the settlement.” Jalbert v. Mulligan, No.
UWYCV086001044S, 2013 WL 3388862, at *9 (Conn.
Super. Ct. June 11, 2013), affd, 101 A.3d 279 (Conn.
App. Ct. 2014).
The Jalberts moved for summary judgment in the
bankruptcy court adversary proceeding. At a January
2015 hearing, the parties agreed that they would not
dispute the state court’s findings of fact, but only
whether those findings satisfied the requirements of
11 U.S.C. § 523(a)(4). In October 2017, the bankruptcy
court granted partial summary judgment in favor of
the Jalberts. Applying the doctrine of collateral
estoppel, the bankruptcy court found that the state
court’s finding that Mulligan had committed statutory
theft compelled the conclusion that he had also com­
mitted defalcation pursuant to 11 U.S.C. § 523(a)(4).
Accordingly, it determined that Mulligan’s debt to the
Jalberts pursuant to the state court judgment was
not dischargeable in bankruptcy. The district court
affirmed the bankruptcy court’s decision. Mulligan
timely appealed.

App.5a
Discussion
“A district court’s order in a bankruptcy case is
subject to plenary review, meaning that this Court
undertakes an independent examination of the factual
findings and legal conclusions of the bankruptcy court.”
D.A.N. Joint Venture v. Cacioli (In re Cacioli), 463
F.3d 229, 234 (2d. Cir. 2006) (internal quotation marks
omitted). The bankruptcy court’s conclusions of law
are reviewed de novo and its findings of fact for clear
error. Babitt v. Vebeliunas (In re VebeJiunas), 332 F.3d
85, 90 (2d Cir. 2003).
1.

Collateral Estoppel

Collateral estoppel “‘prohibits the relitigation of
an issue when that issue was actually litigated and
necessarily determined in a prior action between the
same parties upon a different claim.”’ Trikona Advisers
Ltd. v. Chugh, 846 F.3d 22, 32 (2d Cir. 2017) (quoting
Lighthouse Landings, Inc. v. Conn. Light & Power Co.,
15 A. 3d 601, 613 (Conn. 2011)); see also Marrese v.
Am. Acad, of Orthopaedic Surgeons, 470 U.S. 373, 380
(1985) (federal courts apply the preclusion law of the
state in which judgment was rendered). “An issue
decided against a party in a prior proceeding may not
be relitigated if: (l) it was fully and fairly litigated in
the first action; (2) it was actually decided; and (3) the
decision was necessary to the judgment.” Trikona
Advisers, 846 F.3d at 32 (internal quotation marks
omitted). “An issue is actually litigated if it is properly
raised in the pleadings or otherwise, submitted for
determination, and in fact determined.” Lighthouse
Landings, 15 A. 3d at 613 (internal quotation marks
omitted).

App.6a
The bankruptcy court accorded collateral estoppel
effect to the state court’s factual findings. Mulligan
argues that prior to doing so, the court was required
to inquire into the record underlying the state court’s
judgment to determine whether the issues were fully
and fairly litigated and the judgment valid. He further
contends that the state court judgment is invalid
because it was not supported by the evidence and was
based on facts outside the pleadings. As an initial
matter, Mulligan waived these arguments when he
agreed before the bankruptcy court that the state
court’s factual findings were not in dispute, and that
the only issue to be decided was whether those findings
satisfied the requirements of 11 U.S.C. § 523(a)(4).
See In re Johns-Manville Corp., 759 F.3d 206, 219 (2d
Cir. 2014) (failure to raise an argument in bankruptcy
court constitutes waiver, even if the argument was sub­
sequently raised in the district court).
Moreover, even absent waiver, Mulligan’s argu­
ments lack merit. First, Mulligan misrepresents the
state court record. For instance, Mulligan contends
that two allegations underlying the state court’s judg­
ment—that he failed to inform the Jalberts that their
title company had assumed their defense and that he
had agreed to in-kind payment for legal services—were
not pleaded in the Jalberts’ complaint and therefore
not fully and fairly litigated before the state court. But
these allegations are present in the complaint. See App.
at 86 (Fourth Am. Compl.) (alleging that Mulligan
failed to notify the Jalberts that their title insurance
company had agreed to defend them and that he
agreed to accept carpentry services as in-kind payment).
Second, Mulligan asserts that Connecticut law re­
quires an inquiry into the record underlying a state

App.7a
court judgment to confirm whether that judgment is
“valid.” Mulligan Reply Br. at 2, 3. That assertion mis­
conceives the doctrine of collateral estoppel. Indeed, the
review in which Mulligan urges the federal courts to
engage—looking to the state court record to determine
whether the state court’s factual findings were cor­
rect—is not a prerequisite to collateral estoppel, but
rather precisely the review that this doctrine precludes.
See Trikona Advisers, 846 F.3d at 32.
2.

Defalcation under 11 U.S.C. § 523(a)(4)

“Section 523(a)(4) of the Federal Bankruptcy Code
provides that an individual cannot obtain a bankruptcy
discharge from a debt ‘for fraud or defalcation while
acting in a fiduciary capacity, embezzlement, or lar­
ceny.”’ Bullock v. BankChampaign, NA., 569 U.S. 267,
269 (2013) (quoting 11 U.S.C. § 523(a)(4)). In this
context, “defalcation” includes “a culpable state of
mind requirement”: specifically, “knowledge of, or gross
recklessness in respect to, the improper nature of the
relevant fiduciary behavior.” Id. “Where actual know­
ledge of wrongdoing is lacking,” this requirement is
met “if the fiduciary consciously disregards (or is
willfully blind to) a substantial and unjustifiable risk
that his conduct will turn out to violate a fiduciary
duty.” Id. at 274 (internal quotation marks omitted).
Mulligan argues that, even if collateral estoppel
applies, the facts found by the state court do not estab­
lish the requisite mental state for defalcation under
11 U.S.C. § 523(a)(4). This argument is meritless. In
finding that Mulligan was liable for statutory theft,
the state court necessarily found that “with the intent
to deprive another of property or to appropriate the

App.8a
same to himself or a third person, [Mulligan] wrong­
fully [took], obtain[ed] or [withheld] such property from
[the] owner.” Mulligan, 2013 WL 3388862, at *9
(quoting Hi-Ho Tower, Inc. v. Com-Tronics, Inc., 761
A.2d 1268, 1281 (Conn. 2000)). Specifically, the state
court found that Mulligan, an attorney, “intentionally
misled” the Jalberts, his clients, with the “intent to
deprive [them] of property.” Id. This conduct is an
obvious breach of fiduciary duty. See Beverly Hills
Concepts, Inc. v. Schatz & Schatz, Ribicoff & Kotkin,
111 A.2d 724, 730 (Conn. 1998) (attorney owes fiduciary
duties of loyalty and honesty to clients). Thus, the
bankruptcy court did not err in deciding that the state
court’s findings also established that Mulligan
possessed the required mental state for defalcation—
that is, that he knew, or was grossly reckless with
respect to, “the improper nature of [his] fiduciary
behavior.” See Bullock, 569 U.S. at 269.
[***]
We have considered all of Mulligan’s remaining
arguments and find them to be without merit. Accord­
ingly, we AFFIRM the judgment of the district court.
FOR THE COURT:
Is/ Catherine O’Hagan Wolfe
Clerk

App.9a
ORDER OF THE DISTRICT COURT AFFIRMING
DECISION OF BANKRUPTCY COURT
(MAY 3, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
LAWRENCE R. MULLIGAN,
Appellant-Debtor,
v.

BRUCE K. JALBERT and PAMELA D. JALBERT,
Appellees- Creditors.
No. 3:17-cv-01873 (JAM)
Before: Jeffrey Alker MEYER,
United States District Judge.
Appellant-debtor Lawrence Mulligan has appealed
from a ruling of the United States Bankruptcy Court,
see In re Mulligan, 577 B.R. 6 (Bankr. D. Conn. 2017)
(Nevins, J.), in which the Bankruptcy Court granted
summary judgment concluding that Mulligan’s debt to
appellees-creditors Bruce and Pamela Jalbert was not
a dischargeable debt in bankruptcy pursuant to 11
U.S.C. § 523(a)(4) (providing in part that a debt is not
dischargeable “for fraud or defalcation while acting in
a fiduciary capacity, embezzlement, or larceny”).
Judge Nevins relied on a prior state court ruling that

App.lOa
Mulligan in his capacity as an attorney for the Jalberts had engaged in conversion and intentional stat­
utory theft of funds they entrusted to him. See Jalbert
v. Mulligan, 2013 WL 338862, at *3-9 (Conn. Super.
2013), afiPd, 153 Conn. App. 124, cert, denied, 315 Conn.
901 (2014).
Mulligan raises three grounds on appeal. First,
he contends that the state court exceeded its authority,
because the Bankruptcy Court lifted the automatic
stay only to permit the underlying state court proceed­
ings to proceed as to plaintiffs’ common law fraud
allegations, rather than as to additional claims such
as statutory theft. I do not agree with this argument
for the reasons explained by Judge Nevins in her
ruling as well as those reasons stated in the Jalberts’
briefing. Based on my review of the relevant portions
of the transcript, I conclude that the Bankruptcy
Court’s lifting of the stay was not limited to only the
claim for fraud, and the parties themselves understood
this when they later filed a stipulation in state court
stating that the stay was lifted as to a broad range of
claims including conversion, statutory theft, CUTPA,
fraud, and false pretenses. See Appellant Appendix 173.
Second, Mulligan faults the Bankruptcy Court for
relying on the “factually deficient” findings of the state
court despite the Jalberts’ alleged failure to identify
underlying supporting evidence for these findings in
the state court record. I do not agree with this argu­
ment for the reasons stated by the Jalberts in their
briefing. Most significantly, the parties agreed that the
Bankruptcy Court “could not reconsider findings of fact
made by the [state] trial court,” leaving it to the
Bankruptcy Court’s determination whether “those find­
ings of fact constituted a violation of 11 U.S.C. § 523

App.lla
(a)(4).” In re Mulligan, 577 B.R. at 14. Indeed, the whole
point of collateral estoppel is to pretermit a review of
the underlying evidence where there have been
factual findings in another proceeding between the
same parties by another competent court of jurisdic­
tion. In view of the parties’ agreement on the limited
scope of review as well as the very purpose of collateral
estoppel, the Bankruptcy Court acted well within its
authority by relying on the state court’s factual find­
ings without probing the underlying evidence in the
state court record.
Third, Mulligan argues that the requirements for
collateral estoppel were not met. I do not agree for the
reasons set forth by the Jalberts in their briefing. It is
well established that “a party may assert the doctrine
of collateral estoppel successfully when three require­
ments are met: [l] [t]he issue must have been fully
and fairly litigated in the first action, [2] it must have
been actually decided, and [3] the decision must have
been necessary to the judgment.” Deutsche Bank AG
v. Sebastian Holdings, Inc., 174 Conn. App. 573, 587
(2017). Each one of these requirements was met as to
the predicate facts as found by the state court to
support the conversion and statutory theft claims,
see Jalbert, 2013 WL 338862, at *3-9, and these facts
were in turn relied on by Judge Nevins to support
her conclusion that Mulligan engaged in a defalcation
of funds while acting in his attorney fiduciary capacity
for the Jalberts. See In re Mulligan, 577 B.R. at 17,1920. Having had a full and fair opportunity to litigate
the facts before the state trial court and then to
challenge the trial court’s factual findings by means
of his appeals to the Connecticut Appellate Court and
the Connecticut Supreme Court, Mulligan was not at

App.l2a
liberty to assail the integrity of those findings
before the Bankruptcy Court. Judge Nevins correctly
concluded that Mulligan’s debt was not dischargeable
in bankruptcy.
For the foregoing reasons, the order of the
Bankruptcy Court is AFFIRMED.
Dated at New Haven this 3rd day of May 2018.
/s/ Jeffrey Alker Mever
United States District Judge

App.l3a
AMENDED MEMORANDUM OF DECISION AND
ORDER ON MOTION FOR SUMMARY
JUDGMENT, AFTER RECONSIDERATION
(OCTOBER 27, 2017)
UNITED STATES BANKRUPTCY COURT
DISTRICT OF CONNECTICUT
NEW HAVEN DIVISION
In re: LAWRENCE R. MULLIGAN,
and RENEE T. MULLIGAN,
Debtors.

BRUCE K. JALBERT, and PAMELA D. JALBERT,
Plaintiffs,
v.
LAWRENCE R. MULLIGAN,
Defendant.
Case No.: 10-50037 (AMN) Chapter 7
Adv. Pro. No. 10-05023 (AMN)
Re: ECF No. 53, 57, 61, 62, 63, 67, 82, 95, 96; 101; 105
Before: Ann M. NEVINS, U.S. Bankruptcy Judge
District of Connecticut.

App.l4a
I.

Introduction

The issue before the court is whether a June 11,
2013, decision entered in a Connecticut Superior Court
(the “State Court”) case between the parties to this
adversary proceeding should have preclusive effect
over the claims pending here based on the doctrine of
collateral estoppel. If it does, this court must find that
some or all of plaintiffs’ claims against the defendant
in this adversary proceeding are non-dischargeable
under the Bankruptcy Code.
The State Court found after trial that Lawrence
R. Mulligan (“Mulligan”), one of the debtors in the
main bankruptcy case, case number 10-50037 (the
“Main Case”), and the defendant in this adversary pro­
ceeding, was liable to the plaintiffs, Bruce K. Jalbert
and Pamela D. Jalbert, (the “Jalberts”) for conversion,
statutory theft, a violation of the Connecticut Unfair
Trade Practices Act (“CUTPA”), and larceny by false
pretenses. However, the State Court also found that
Mulligan was not liable to the Jalberts for fraud.
Following briefing and oral argument, the parties
agreed that the key issue before this court is whether
the State Court determined that Mulligan had the
requisite intent to commit defalcation under 11 U.S.C.
§ 523(a)(4).1 If so, then Mulligan’s debt to the plaintiffs
resulting from the State Court litigation should be
deemed non-dischargeable.
In addition, the Jalberts claimed that the debt
should be non-dischargeable pursuant to 11 U.S.C.
1 Whether the debt is non-dischargeable pursuant to 11 U.S.C
§ 523(a)(4) as it pertains to embezzlement or larceny (as opposed to
defalcation) has neither been raised nor asserted by the plaintiffs.

App.l5a
§ 523(a)(2)(A), although neither party discussed this
claim extensively, and both parties briefed the question
of the applicability of 11 U.S.C. § 523(a)(2)(6), even
though the plaintiffs did not raise it as a claim in their
complaint or motion for judgment.
The parties further agreed that the standards for
a motion for summary judgment should guide the
court’s determination. AP-ECF No. 86,2 Transcript of
1/13/15 hearing.
This Amended Memorandum of Decision is being
issued after additional briefing and argument about
the court’s conclusion relating to Count V of the com­
plaint, raised by the defendant by way of a timely filed
motion to reconsider. AP-ECF Nos. 101, 105.
II. Jurisdiction, Venue, and Standing
This court has jurisdiction over this action pursu­
ant to 28 U.S.C. §§ 1334(b) and 157(b), and the District
Court’s Order of referral of bankruptcy matters, dated
September 21, 1984. This adversary proceeding is a
core proceeding pursuant to 28 U.S.C. § 157(b)(2)(J)
(objections to discharge). This adversary proceeding
arises under the Main Case, a chapter 7 proceeding
pending in this District; therefore, venue is proper in
this District pursuant to 28 U.S.C. § 1409. The plaintiffs
have standing to seek the relief sought in the complaint
because, as creditors in the Main Case, they may object
to the granting of a discharge pursuant to 11 U.S.C.
§ 727(c)(1).
2 References to the court’s docket entries in the main chapter 7
bankruptcy case, case number 10-50037 (AMN),. are, “ECF
No.__ . ” References to the docket entries in this adversary pro­
ceeding, number 10-5023 (AMN) are “AP-ECF No.__ .”

App.l6a
III. Procedural Background
Mulligan and his spouse, Renee T. Mulligan, filed
a petition under chapter 7 of the United States
Bankruptcy Code on January 8, 2010 (the “Petition
Date”). In their schedule of liabilities, they listed an
unsecured, disputed debt to the plaintiffs in the amount
of $150,000 incurred in 2008 with the consideration
listed as “Judgment.” On March 29, 2010, the plain­
tiffs filed the complaint in the present adversary
proceeding. The complaint, styled as a “complaint
objecting to dischargeability of debt,” sought a judgment
finding Mulligan liable for conversion (Count I), stat­
utory theft (Count II), violation of CUTPA (Count III),
fraud (Count IV), and false pretenses (Count V). APECF No. 1. The plaintiffs alleged that by committing
the actions alleged in each of the first four counts,
Mulligan had “defrauded the [plaintiffs] by way of
fraud or defalcation while acting in a fiduciary capacity
contrary to 11 U.S.C. § 523(a)(4).” The plaintiffs fur­
ther alleged that by obtaining money by false pretenses
and/or actual fraud as alleged in Count V, Mulligan
had acted “contrary to 11 U.S.C. § 523(a)(2)(A) and
therefore the debts owed by [Mulligan] to the plaintiffs
should be deemed non-dischargeable.” The plaintiffs
requested both that the court enter judgment for
money damages, punitive damages, interest, treble
damages, attorney’s fees, and costs of the suit, and
that it determine the judgment in the State Court
Action to be non-dischargeable.
In a June 15, 2010 hearing, United States
Bankruptcy Judge Alan H. W. Shiff (now retired)
determined that the liability questions would be better
answered in state court. AP-ECF No. 67, Exh A. During
the hearing, the parties discussed a state court action,

App.l7a
Jalbert v. Mulligan, Superior Court, judicial district of
Waterbury, Docket No. CV-08-6001044-S (the “State
Court Action”), that had been pending on the Petition
Date. AP-ECF No. 67, Exh A. The court asked whether
the action had the same core as the adversary proceed­
ing. AP-ECF No. 67, Exh A. Mulligan’s attorney stated
that the state court action was broader than the
adversary proceeding. AP-ECF No. 67, Exh A. The
judge instructed the parties to “find out if there’s any
liability’ in state court where the matter had already
been pending. AP-ECF No. 67, Exh. A p. 10. Judge Shiff
further stated the parties should “fight it out or settle
it, or do whatever you’re going to do in the state court
where it is already in progress. . . . [I]f there’s a finding
of common law fraud that—and there’s an amount of a
debt, I should think you’d all say then that debt should
be not discharged. If there’s fraud, the debt should not
be discharged. Conversely, the opposite result.”3 APECF No. 67, Exhibit A p. 11. The plaintiffs’ attorney
then asked whether the court would be entering an
order for relief from stay. Judge Shiff stated he had
ruled on the bench and confirmed that the parties
consented to relief from stay; the plaintiffs’ attorney
stated, “[w]e stipulate, Your Honor.” AP-ECF No. 67,
Exhibit A p. 12. The judge then ordered, “you go ahead
3 Mulligan contends that this statement by the judge only lifts
the stay for a State Court finding on the fraud count. The judge’s
statement regarding fraud was not a ruling limiting the State
Court; the judge clearly indicated he wanted all issues regarding
liability decided in State Court. The judge’s statement about
fraud is an indication as to the judge’s thoughts regarding the
effects of a decision in the State Court. The court does not
consider this statement to in any way limit its inquiry to only
fraud rather than fraud, defalcation, and the other issues the
parties have raised.

App.l8a

and continue what you’ve started in the state court.”
AP-ECF No. 67, Exhibit A p. 12. The court entered
a docket entry stating the parties stipulated to relief
from the automatic stay on June 15, 2010, and the
parties filed a stipulated notice of relief from stay in
the State Court Action on August 9, 2010.4 See APECF No. 62, Exhibit C.
After the State Court entered judgment for the
Jalberts they moved for judgment in this adversary
proceeding. AP-ECF No. 53. The fourth amended com­
plaint in the State Court Action contained the same
five counts arising out of the same facts as the com­
plaint in the present action, for conversion, statutory
theft, violation of CUTPA, fraud, and false pretenses.5
Compare AP-ECF NO. 57, Exhibit 1, with AP-ECF No.
1.

4 Mulligan also contends that this was not sufficient to effectuate
relief from the automatic stay, citing to In re: Toor, All B.R. 299
(D. Conn. 2012). In Toor, the district court determined that a stay
went into effect upon a bankruptcy court’s filing of its order
imposing the stay on the docket, rather than on the date three
months earlier when it ruled orally that the stay would be imposed.
Toor, 305. In that case, the parties had vigorously contested
whether a stay would be imposed and when it would be imposed,
in sharp contrast to the present case where the parties stipulated
to relief from stay, filed their stipulation in state court, and pro­
ceeded to litigate the issues extensively in reliance on their
understanding that the stay had been lifted. See, Toor, 303.
Mulligan defended the State Court Action, and never sought fur­
ther elaboration, advice, or imposition of the stay from the
Bankruptcy Court.
5 The court will refer to the counts in the present proceeding by
number, Count I, etc., and the counts in the State Court Action
by legal theory, the conversion count, etc.

App.l9a

The State Court found Mulligan liable for conver­
sion, statutory theft, CUTPA violation, and larceny by
false pretenses, but not for fraud. AP-ECF No. 53,
Exhibit 1, p. 29. The State Court found, in short, that
Mulligan, then a friend of the Jalberts, had repre­
sented them as their attorney without informing them
that their title insurance company had appointed
another attorney to represent them. AP-ECF No. 53,
Exhibit 1, pp. 2-4. Mulligan claimed the title insurance
company initially refused to provide representation
related to a November 2006 suit regarding a purported
easement on the plaintiffs’ property, but then subse­
quently appointed an attorney for the Jalberts. APECF No. 53, Exhibit 1, pp. 2—4. Mulligan told the
Jalberts this attorney had been appointed to assist
him. AP-ECF No. 53, Exhibit 1, pp. 2—4.
According to the State Court opinion after trial,
the parties had earlier agreed to in-kind payment,
whereby Bruce Jalbert would perform construction
work for Mulligan in exchange for legal services from
Mulligan if the title insurance company did not pay
Mulligan to serve as the plaintiffs’ attorney. AP-ECF
No. 53, Exhibit 1, pp. 2-4. The undisputed value of the
renovations Bruce Jalbert performed between 2005 and
2007 was $84,750. AP-ECF No. 53, Exhibit 1, p. 3. In
May 2007, Mulligan asked the plaintiffs for $85,000 in
order to show the title insurance company that the
plaintiffs had paid him. AP-ECF No. 53, Exhibit 1, p.
4. He agreed to hold the $85,000 in an escrow account,
but did not return the funds. AP-ECF No. 53, Exhibit
1, p. 4.
The State Court also concluded Mulligan had filed
no pleadings on behalf of the Jalberts, but rather the
attorney appointed by the title insurance company

App.20a

filed pleadings and subsequently engaged in settlement
discussions and settled the case. AP-ECF No. 53,
Exhibit 1, p. 4. As part of the settlement, $100,000 was
received by Mulligan, of which he retained $50,000 as
payment for his legal services. AP-ECF No. 53,
Exhibit 1, p. 4. The State Court credited the Jalberts’
testimony that they would not have permitted Mulligan
to retain this amount if they had known that the title
insurance company had retained an attorney for them.
AP-ECF No. 53, Exhibit 1, pp. 10—11. The State Court
also made numerous findings regarding Mulligan’s mis­
leading conduct and misleading documents he created.
AP-ECF No. 53, Exhibit 1, pp. 11—13.
The State Court awarded damages of $746,842.11
to the Jalberts. AP-ECF No. 53, Exhibit 1, p. 30. It
later supplemented its initial award by adding offer of
compromise interest based on General Statutes § 52192a and Connecticut Practice Book § 17-8, and attor­
ney’s fees, but decreasing the interest previously
awarded, to increase the total award to $821,664.92
plus attorney’s fees of $125,000. AP-ECF No. 63, Exhibit
1, pp. 16—17.
Mulligan filed an opposition to the motion for
judgment in this case, attaching the fourth revised
complaint from the State Court action. In his objection,
Mulligan claimed, inter alia, that the plaintiffs had
failed to follow the proper procedures for a motion for
summary judgment, and that the State Court judgment
was not yet final. These issues have been resolved by
the subsequent briefing and the passage of time. In
2014, the Connecticut Appellate Court upheld the State
Court judgment and the Connecticut Supreme Court
denied certification to appeal. Jalbert v. Mulligan, 153

App.21a
Conn. App. 124, 101 A.3d 279, cert, denied, 315 Conn.
901, 104 A.3d 107 (2014).
The plaintiffs filed a memorandum regarding dis­
chargeability, an amended memorandum regarding
dischargeability, and a supplemental memorandum
regarding dischargeability. AP-ECF Nos. 61, 62, 63.
The additional memoranda provided argument regard­
ing the pertinent legal standards that had been lacking
in plaintiffs’ initial motion, and attached their initial
complaint in the present action, the two pertinent
State Court decisions, and a variety of exhibits from
the State Court Case. AP-ECF Nos. 61, 62, 63. Mulli­
gan also filed a memorandum in opposition to non-dis­
chargeability to which he attached a transcript of the
June 15, 2010 hearing before Judge Shiff, and addi­
tional exhibits related to the State Court Case.
During a hearing held before Judge Shiff on
January 13, 2015, the parties agreed that despite the
rather unorthodox briefing, the matter would be dis­
posed of as a motion for summary judgment. AP-ECF No.
86, p. 3. At a hearing held before the undersigned on
these motions on May 3, 2016, the parties agreed that
the court could not reconsider findings of fact made by
the trial court; the issue was whether those findings
of fact constituted a violation of 11 U.S.C. § 523(a)(4).
AP-ECF No. 92, 00:01:55.6 Mulligan’s attorney stated
that the issue the State Court had not decided was
Mulligan’s state of mind when committing the acts of
which he had been found liable. AP-ECF No. 92,

6 All timestamps indicate the hours minutes and seconds
(00:00:00) for the .mp3 file publicly available at the referenced
ECF No. as played on VLC Media Player.

App.22a
00:05:13. The parties agreed to file statements pursu­
ant to Local Rule 56(a)(2). AP-ECF No. 92, 00:29:30.
The plaintiffs filed a statement of material facts on
June 24, 2016, and Mulligan filed a statement on July
15, 2016 admitting some of the facts, denying others,
and stating which issues he contended were genuine
issues of material fact requiring a trial. AP-ECF Nos.
95, 96.
The parties’ Rule 56(a)(2) statements contained
substantial agreement regarding the procedural posture
and findings of the State Court, but differed in a
number of particulars. AP-ECF Nos. 95, 96. Mulligan’s
status as the plaintiffs’ attorney from 1995 to 2008
was undisputed. AP-ECF Nos. 95, 96,
7, 31; AP-ECF
No. 96, Disputed Issues of Material Fact
4, 5 (dispute
as to whether Mulligan was subjectively aware of
breach of fiduciary duty, but no claim that he was not
a fiduciary).
However, Mulligan denied the Jalberts’ charac­
terization of the claims in the State Court Action as
identical to the claims here, noting that this adversary
proceeding is a determination non-dischargeability
pursuant to 11 U.S.C. §§ 523(a)(4) and)(2)(A), while
the State Court Action concerned only state law causes
of action.7 AP-ECF Nos. 95, 96, 1fl 3, 4. For example,
Mulligan emphasized that the State Court did not find
that Mulligan mislead the plaintiffs when he informed

7 A number of the disputed facts pertained to the underlying
facts of the case, rather than to the State Court’s findings. A
number also pertain to the CUTPA count, which as the court will
discuss infra, does not have collateral estoppel effect on this pro­
ceeding.

App.23a
them that the title insurance company was not repre­
senting them. AP-ECF Nos. 95, 96, f 14. Mulligan
maintains that the State Court found that the title
insurance company informed Mulligan it would rep­
resent the plaintiffs two months after Mulligan
informed them that it would not. AP-ECF Nos. 95, 96,
f 14. Mulligan claims there is an issue of fact regard­
ing the $85,000 paid to him by the plaintiffs, asserting
that it was for legal fees in the period before the title
insurance company provided representation, and that
the State Court never found that he had not performed
any legal work, but rather found that his services were
not worth what he charged.8 AP-ECF Nos. 95, 96,

1T1f 16, 22.
Mulligan also directly asserted the existence of
material facts in dispute. He claimed that: (l) there
was an issue—unresolved by the State Court—as to
whether the Jalberts justifiably relied on his statements
or conduct regarding the fraud and false pretenses
claims, AP-ECF No. 96, Disputed Issues of Material
Fact If 3; (2) there remained an issue of fact as to
whether he subjectively knew or was willfully blind to
a substantial and unjustifiable risk that he was
violating his fiduciary duty to the plaintiffs, AP-ECF
No. 96, Disputed Issues of Material Fact Uf 4—6; and
(3) there is a genuine issue of material fact as to
whether he was entitled to legal fees for work per­
formed before the title insurance company provided rep­
resentation^ AP-ECF No. 96, Disputed Issues of
Material Fact f 7.
8 This is an attack on the underlying judgment and will be
addressed in the Discussion.
9 See footnote 8, supra.

App.24a
Following the court’s decision granting summary
judgment in favor of the Jalberts, the defendant filed
a motion for reconsideration as to the court’s charac­
terization of an argument in a footnote (now omitted)
and as to the court’s conclusion that the Jalberts were
entitled to summary judgment as to Count V. For the
reasons that follow, the court now restates its decision,
granting summary judgment in favor of the Jalberts
as to Count II and finding the State Court’s judgment
to be non-dischargeable. As to Count V—as well as
Counts I and III—summary judgment is denied.
IV. Discussion
A. Applicable Law
1. Summary Judgment Standard
Federal Rule of Bankruptcy Procedure 7056
incorporates Federal Rule of Civil Procedure 56, that
in turn provides in pertinent part that “[t]he court
shall grant summary judgment if the movant shows
that there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” See Miller v. Wolpoff & Abramson, LLP, 321
F.3d 292, 300 (2d Cir. 2003). The court resolves all
ambiguities and draws all factual inferences in favor
of the non-movant. Nationwide Life Ins. Co. v. Bankers
Leasing Assoc., 182 F.3d 157, 160 (2d Cir. 1999). Sum­
mary judgment is appropriate “[wlhere the record
taken as a whole could not lead a rational trier of act
to find for the non-moving party.” Kearney v. New
York State Dep’t of Corr. Servs., 581 F. App’x 45, 46
(2d Cir. 2014), cert, denied, 135 S.Ct. 2919, 192
L.Ed.2d 932 (2015), reh’g denied, 136 S.Ct. 21, 192
L.Ed.2d 992 (2015).

App.25a
2. Collateral Estoppel
“Parties may invoke collateral estoppel to preclude
relitigation of the elements necessary to meet a § 523(a)
exception.” Ball v. A.O. Smith Corp., 451 F.3d 66, 69
(2d Cir. 2006), citing Grogan v. Garner, 498 U.S. 279,
285, n.ll (1991). “Collateral estoppel is applicable if
the facts established by the previous judgment... meet
the requirements of non-dischargeability....” Ball, 451
F.3d at 69, quoting In re Docteroff, 133 F.3d 210, 215
(3d Cir. 1997). “[A] federal court must give to a statecourt judgment the same preclusive effect as would be
given that judgment under the law of the State in
which the judgment was rendered.” Malcolm v. Honeoye
Falls-Lima Cent. Sch. Dist., 629 F. App’x 87, 88 (2d
Cir. 2015), cert, denied sub nom. Malcolm v. Honeoye
Falls-Lima Cent. Sch., 136 S.Ct. 2411 (2016) (internal
quotation marks omitted), see also Evans v. Ottimo,
469 F.3d 278, 281 (2d Cir. 2006) (state law preclusion
applied to non-dischargeability in bankruptcy proceed­
ing).
The Connecticut Supreme Court described Connec­
ticut’s standards for collateral estoppel in Lighthouse
Landings, Inc. v. Connecticut Light & Power Co., 300
Conn. 325, 343-45, 15 A.3d 601 (2011):
‘The common-law doctrine of collateral estop­
pel, or issue preclusion, embodies a judicial
policy in favor of judicial economy, the stabil­
ity of former judgments and finality. . .
Collateral estoppel, or issue preclusion, is
that aspect of res judicata which prohibits
the relitigation of an issue when that issue
was actually litigated and necessarily deter­
mined in a prior action between the same
parties upon a different claim. . . . For an

App.26a
issue to be subject to collateral estoppel, it
must have been fully and fairly litigated in
the first action. It also must have been actu­
ally decided and the decision must have been
necessary to the judgment. . . . An issue is
actually litigated if it is properly raised in the
pleadings or otherwise, submitted for deter­
mination, and in fact determined. . . . An
issue is necessarily determined if, in the
absence of a determination of the issue, the
judgment could not have been validly ren­
dered. ... If an issue has been determined,
but the judgment is not dependent [on] the
determination of the issue, the parties may
relitigate the issue in a subsequent action.
Findings on nonessential issues usually have
the characteristics of dicta.”
3. Bankruptcy Code Section 523 (a)
Section 523 (a) of the Bankruptcy Code provides
in pertinent part:
“(a) A discharge under section 727, 1141,
1228(a), 1228(b), or 1328(b) of this title does
not discharge an individual debtor from any
debt—...
“(2) for money, property, services, or an exten­
sion, renewal, or refinancing of credit, to the
extent obtained by —
“(A) false pretenses, a false representation,
or actual fraud, other than a statement
respecting the debtor’s or an insider’s
financial condition. ...

App.27a
“(4) for fraud or defalcation while acting in a
fiduciary capacity, embezzlement, or larceny.
“(6) for willful and malicious injury by the debtor
to another entity or to the property of
another entity...”
11 U.S.C. § 523 (a).
i. Defalcation—Bankruptcy Code Section
523(a)(4)
As described in § 523(a)(4), [defalcation’ covers
a failure to produce funds entrusted to a fiduciary and
applies to conduct that does not necessarily reach the
level of fraud, embezzlement or misappropriation.” In
re Hunt, 2013 WL 1723795, at *12 (Bankr. D. Conn.
Apr. 22, 2013), citing 4 Alan N. Resnick & Henry J.
Sommer, Collier on Bankruptcy If 523. 10[l][b], at
523-71 (16th ed. 2012); In re Hall, 483 B.R. 281, 294
(Bankr. D. Conn. 2012). “At minimum, ‘defalcation,’ as
that term is used in section 523(a)(4), embraces
misappropriation by a fiduciary.” In re Stone, 94 B.R.
298, 300 (S.D.N.Y. 1988), affd, 880 F.2d 1318 (2d Cir.
1989), citing Central Hanover Bank & Trust v. Herbst,
93 F.2d 510, 511-12 (2d Cir. 1937) (L. Hand\ J.X “[T]he
attorney-client relationship, although usually not
involving a technical trustee or express trust, has long
been understood to be a fiduciary relationship within
the meaning of the defalcation exception.” In re Hayes,
183 F.3d 162, 168 (2d Cir. 1999). The Supreme Court
recently determined that defalcation, “includes a
culpable state of mind requirement akin to that which
accompanies application of the other terms in the
same statutory phrase. We describe that state of mind
as one involving knowledge of, or gross recklessness in

App.28a
respect to, the improper nature of the relevant fiduciary
behavior.” Bullock v. BankChampaign, N.A., 133 S.Ct.
1754, 1758 (2013). While “[f]raud typically requires a
false statement or omission . . . [defalcation . . . can
encompass a breach of fiduciary obligation that [does
not involve] falsity.” Bullock, 1760.
ii. False Pretenses-Bankruptcy Code
Section 523(a)(2)(A)
While false pretenses is contained in the same
section as false representations and actual fraud, each
of the terms in § 523(a)(2)(A) embodies a distinct
concept. In re Steinberg, 2016 WL 2637959, at *5
(Bankr. S.D.N.Y. May 5, 2016); see Husky Inti Elecs.,
Inc. v. Ritz, 136 S.Ct. 1581, 1590, 194 L. Ed. 2d 655
(2016) (noting use of disjunctive “or” in § 523(a)(2)(A)).
‘“False pretenses,’ is one of three separate bases for
non-dischargeability of a debt under § 523(a)(2)(A) the
others being a ‘false representation’ and ‘actual fraud’.
These terms of art were used by Congress to incor­
porate the general common-law of such torts; i.e. the
‘dominant consensus’ of jurisdictions, rather than the
specific law of any given State.” In re Knight, 538 B.R.
191, 208-209 (Bankr. D. Conn. 2015) {quoting Field v.
Mans, 516 U.S. 59, 70 fn. 9 (1995)). The United States
Supreme Court, “has historically construed the terms
in § 523(a)(2)(A) to contain the ‘elements that the
common law has defined them to include.’ Field v.
Mans, 516 U.S. 59, 69, 116 S.Ct. 437, 133 L.Ed.2d 351
(1995). ‘Actual fraud’ has two parts: actual and fraud.
The word ‘actual’ has a simple meaning in the context of
common-law fraud: It denotes any fraud that ‘involves]
moral turpitude or intentional wrong.’” Neal v. Clark,
95 U.S. 704, 709, 24 L.Ed. 586 (1878). ‘Actual’ fraud
stands in contrast to ‘implied’ fraud or fraud ‘in law,’

App.29a
which describe acts of deception that ‘may exist without
the imputation of bad faith or immorality.’ Ibid. Thus,
anything that counts as ‘fraud’ and is done with
wrongful intent is ‘actual fraud.’ Husky Inti Elecs.,
Inc. v. Ritz, 136 S.Ct. 1581, 1586 (2016).
False pretenses have been broadly construed as a
group of omissions, actions, or representations under­
taken to create a false impression. In re Carrano, 530
B.R. 540, 557 (Bankr. D. Conn. 2015); In re Rosenfeld,
543 B.R. 60, 72 (Bankr. S.D.N.Y. 2015); In re Stein­
berg, 2016 WL 2637959, at *6 (Bankr. S.D.N.Y. May 5,
2016). “In order to establish that a debt is non-dischargeable as a debt for money obtained by false
pretenses, the plaintiff must establish (l) an implied
misrepresentation or conduct by the defendant; (2)
promoted knowingly and willingly by the defendant; (3)
creating a contrived and misleading understanding of
the transaction on the part of the plaintiff; and (4) which
wrongfully induced the plaintiff to advance money,
property, or credit to the defendant.” In re Steinberg,
at *6. “A failure to disclose material facts on which a
transaction depends may constitute false pretenses.”
In re Rosenfeld, 534 B.R. at 72. Likewise, “presenting
an invoice seeking payment for goods which are never
delivered constitutes false pretenses. ...” In re Nisivoccia, 502 B.R. 139, 156 (Bankr. E.D.N.Y. 2013).
“[T]he level of a creditor’s reliance on a fraudulent
misrepresentation necessary” to render the debt nondischargeable within the meaning of § 523(a)(2)(A) is
not reasonable reliance but “the less demanding one
of justifiable reliance on the statement.” Field v.
Mans, 516 U.S. at 59. “This requires the creditor not
to ‘blindly rely upon a misrepresentation [or pretense]
the falsity of which would be patent to him if he had

/'

App.30a
utilized his opportunity to make a cursory examination
or investigation.’” Field v. Mans, 516 U.S. at 71.
“Finally, a creditor must prove that the subject pretense
was the legal or proximate cause of the subject debt. A
fraudulent misrepresentation is the legal cause of a
loss only if the loss might reasonably be expected to
result from reliance upon the misrepresentation.” In
re Knight, 538 B.R. at 209 (citing Restatement of
Torts, at § 548A).
iii. Willful and Malicious InjuryBankruptcy Code Section 523(a)(6)
“Under the Bankruptcy Code, discharge is not
available for a debt for willful and malicious injury
by the debtor to another. 11 U.S.C. § 523(a)(6). As used
in that section, the word ‘willful’ indicates a deliberate
or intentional injury, not merely a deliberate or inten­
tional act that leads to injury. . . . The injury caused
by the debtor must also be malicious, meaning
wrongful and without just cause or excuse, even in the
absence of personal hatred, spite, or ill-will. . . . Malice
may be implied by the acts and conduct of the debtor
in the context of [the] surrounding circumstances.”
Ball v. A.O. Smith Corp., 451 F.3d 66, 69 (2d Cir. 2006)
(internal citations omitted, internal quotation marks
omitted).
B. Application of Law to Relevant
Undisputed Facts
Applying the standards above requires the court
to determine whether the facts that were necessarily
determined in the State Court Action also demonstrate
the resulting debts are non-dischargeable under 11
U.S.C. § 523(a). The court will discuss defalcation in a

App.31a
fiduciary capacity as it relates to the conversion, stat­
utory theft, and CUTPA counts of the State Court
Action, the impact of the State Court’s finding that
Mulligan was not liable for fraud, and, false pretenses
under § 523(a)(2)(A) as it relates to the State Court’s
finding on the larceny by false pretenses count in the
State Court Action. Finally, the court will discuss the
applicability of § 523(a)(6).
Turning first to defalcation, there are three
elements the plaintiffs must have in the State Court
Action before the State Court’s factual finding dictates
a legal conclusion of non-dischargeability based on
§ 523(a)(4): Mulligan must have been acting as a
fiduciary, must have committed acts constituting
defalcation—such as but not limited to failing to
produce funds entrusted to him or misappropriating
funds—and must have done so with the requisite mental
state. The parties have not contested the first two
elements. The plaintiffs’ statement of the issues
classifies Mulhgan as the parties’ attorney and describes
his actions in misappropriating the funds at issue.
Mulhgan does not claim that these facts are in dispute,
but rather focuses on whether the State Court made a
finding as to his mental state.
1. Conversion and Count I
Mulligan argues that the trial court’s finding of
conversion did not require the State Court to make
any finding regarding his mental state. This is
accurate, in that the difference between conversion
and statutory theft is that statutory theft requires
proof of intent whereas conversion does not. See Deming
v. Nationwide Mut. Ins. Co., 279 Conn. 745, 771 (2006).
Therefore the State Court’s finding of conversion does

App.32a

not have collateral estoppel effect on this court’s
consideration of the claim in Count I that by converting
funds Mulligan committed defalcation pursuant to 11
U.S.C. § 523(a)(4). Therefore, the court will not grant
summary judgment as to Count I.
2. Statutory Theft and Count II
In its discussion of conversion, the State Court
found that a letter from Mulligan to the plaintiffs was
as “a studied effort to obtain funds by providing
misleading information, since Mulligan nowhere stated
therein what he knew at the time: that Chicago Title
was providing a defense. ...” AP-ECF No. 53, Exhibit
1, p. 8. This finding was not required for the conversion
finding, but the court specifically incorporated all of
its findings in the conversion count into its findings
regarding the statutory theft count, for which it was
necessary and to which the court will now turn.
In laying the factual groundwork for its ruling
on statutory theft, the State Court found that the evi­
dence was, “also clear and convincing that Mulligan
intentionally and wrongfully took and withheld
$135,000 from the plaintiffs. Mulligan intentionally
misled them concerning the $85,000 payment from the
trust. Mulligan intentionally misled the plaintiffs into
believing that his services were needed to defend them
in the Warren Enterprises litigation, and that he was
entitled to be paid therefor, causing them also to agree
that he would receive $50,000 from the settlement. He
intentionally deprived them of those funds as well.”
AP-ECF No. 53, Exhibit 1, p. 16. These detailed find­
ings were necessary to the State Court’s disposition of
the statutory theft count and Mulligan’s argument that

App.33a
the State Court did not consider his intent is un­
availing.
“Statutory theft. . . requires an element over and
above what is necessary to prove conversion, namely,
that the defendant intentionally deprived the complain­
ing party of his or her property.” Mystic Color Lab, Inc.
v. Auctions Worldwide, LLC, 284 Conn. 408, 418-19
(2007). Intentional conduct is more culpable than
knowing or reckless conduct, the standard the Supreme
Court held is required for defalcation. See, e.g., S.
Cherry St., LLC v. Hennessee Grp. LLC, 573 F.3d 98,
109 (2d Cir. 2009) (describing recklessness as “a state
of mind approximating actual intent”). The State
Court’s finding of intentional conduct for the statutory
theft count is therefore preclusive of this court’s
consideration of whether Mulligan was knowing or
reckless as it applies to defalcation in Count II.
Mulligan also argued to this court that the State
Court incorrectly failed to find that the $85,000 was
for legal fees prior to the title insurance company pro­
viding representation and that Mulligan should have
received credit for the services he did perform for the
plaintiffs. However, because it is clear the State Court
did find that Mulligan intentionally misappropriated
the $85,000 paid to him by the plaintiffs and the
finding was a ground for the State Court’s rulings on
statutory theft and larceny by false pretenses, these
rulings are preclusive as to defalcation pursuant to
§ 523(a)(4) here.
Importantly, the State Court found that Mulligan’s
statements and records regarding the work he per­
formed were not credible, and it did not provide for'
any setoff. AP-ECF No. 53, Exhibit 1, p. 8, 11-13. The
decision of the State Court was appealed and affirmed;

App.34a
it is therefore a final judgment and this court “has no
authority to review final judgments of a state court
in judicial proceedings.” D.C. Court of Appeals v.
Feldman, 460 U.S. 462, 482 (1983).
The State Court’s finding that Mulligan committed
statutory theft therefore controls this court’s determi­
nation that he also committed defalcation while acting
in a fiduciary capacity. As a consequence, those dam­
ages that result from the statutory theft count are
non-dischargeable in bankruptcy pursuant to 11
U.S.C. § 523(a)(4) and the plaintiffs are entitled to
summary judgment on Count II.
3. CUTPA and Count III
The State Court further found that Mulligan had
violated CUTPA, and awarded damages plus attorney’s
fees. These damages included the damages for statutory
theft, as well as damages for the work Bruce Jalbert
performed in the belief that he was exchanging this
work for in-kind payment, valued at $84,750. Mulligan
makes the same contention regarding Count III and
the State Court’s determinations on the CUTPA count
that he made regarding the false pretenses count:
because the State Court was not required to determine
Mulligan’s intent to find a CUTPA violation the State
Court’s findings should not be binding here. Finding a
CUTPA violation requires only that a practice offend
public policy, be immoral, unethical, oppressive, or un­
scrupulous, and cause substantial injury to consumers,
and not that a defendant have a particular mental
state. See, Harris v. Bradley Memorial Hospital &
Health Center, Inc., 296 Conn. 315, 350-51 (2010).
The court agrees that as to the allegations in Count
III of the complaint before the court here, the State

App.35a
Court’s findings as to the CUTPA count, standing alone,
do not direct a determination of non-dischargeability
on Count III. The court therefore will not grant
summary judgment on Count III.
4. Fraud and Count IV
While the court has not been asked to enter sum­
mary judgment for either party on Count IV, consid­
eration of the State Court’s finding as to fraud is
nonetheless required. Mulligan claims that the State
Court’s determination that he was not liable for fraud
prevents this court from finding that he committed
defalcation. In deciding the fraud claim, the State
Court focused on three specific representations alleged
by the plaintiffs:
“In their post-trial memorandum, the plain­
tiffs seek damages for fraud for three separate
claimed fraudulent representations. Two of
these relate to promises by [Mulligan] to do
acts in the future. They contend that he
falsely informed them that if they trans­
ferred $135,000 to him, he would return the
funds at the end of the litigation ($85,000
from the trust and $50,000 from the settle­
ment). They also contend that, by falsely
informing the plaintiffs that Chicago Title
had refused to defend their interests, [Mul­
ligan] fraudulently induced Bruce Jalbert to
perform labor for [Mulligan]’s benefit, with­
out compensation. See plaintiffs’ post-trial
memorandum, pp. 29-30.
As to the first two, the allegation concerning
the payment from the trust is pleaded as a
promise. . . . The court is unpersuaded that

App.36a
the plaintiffs have proved that [Mulligan]
had a present intent not to fulfill the promise
when it was made. As to the second, the
allegation concerning the $50,000 not returned
from the settlement is not pleaded as a fraud­
ulent misrepresentation.”
AP-ECF No. 53, Exhibit 1, p. 21—22.
The State Court determined that the plaintiffs
had failed to prove, regarding the first two represent­
ations, or to allege, regarding the third representa­
tion, that Mulligan had a specific intent to defraud
them at the time he made statements regarding his
future intent. This is not dispositive of the plaintiffs’
claims that they are entitled to judgment on Counts I
through III for defalcation, or on Count V for false
pretenses. 10 Moreover, the court does not read the
State Court’s decision that the plaintiffs failed to
establish fraud as pled in the State Court Action to
contradict the State Court’s findings that the plain­
tiffs did establish their claims against Mulligan
grounded in conversion, statutory theft, CUTPA, and
larceny by false pretenses. “Defalcation” as used in
§ 523(a)(4) does not require a specific statement, or
that the requisite mental state be contemporaneous
with a given action. Statutory theft may be found
where Mulligan initially intended to return money,
and only later formed the intent to retain it for his own
use. See Conn. Gen. Stat. §§ 53a-119(l) and (8). False
pretenses, both pursuant to the federal standards
applicable to § 523(a)(2)(A) above, and in the state law
10 Mulligan did not make a cross motion for summary judgment
on Count IV, therefore the issue of whether the State Court’s find­
ings bind this court on Count IV is not before the court.

App.37a
standards to which the court will turn next, involves
a broader range of conduct, including both nonverbal
conduct and omissions.
5. Larceny by False Pretenses and Count V
The State Court found that Mulligan was liable for
larceny by false pretenses, a type of statutory theft.
Mulligan argues that because the State Court failed
to find the Jalberts justifiably relied on his represent­
ations, a genuine issue of material fact exists that the
State Court did not determine, and that precludes sum­
mary judgment pursuant to the false pretenses theory
under § 523(a)(2)(A). See AP-ECF No. 96. The court,
after reconsideration, agrees that the State Court did
not make a finding or draw a conclusion as to whether
the plaintiffs justifiably relied on Mulligan’s represent­
ations or conduct. Therefore collateral estoppel on this
ground is not warranted and summary judgment is
denied as to Count V.
6. Willful and Malicious Injury—11 U.S.C.
§ 523(a)(6)
The plaintiffs also raised the issue of whether the
State Court had decided the issue of the non-dis­
chargeability of Mulligan’s debt based on “willful and
malicious injury” pursuant to 11 U.S.C. § 523(a)(6). Mul­
ligan asserted that this issue was not properly raised
because it was not alleged in the complaint. The court
notes it was also not raised in the plaintiffs’ initial
motion for judgment, but it was extensively argued by
the parties. Mulligan also claimed that the State
Court never made a finding as to his intent to injure
the plaintiffs, a finding that would be necessary for
liability according to 11 U.S.C. § 523(a)(6), but that

App.38a
was not necessary to any of the five grounds that the
State Court did determine. Without deciding whether
the issue was properly raised, the court determines
that the State Court did not make a finding as to
whether the injury to the plaintiffs was deliberate and
intentional, and malicious. Therefore, collateral estop­
pel on this ground is not warranted.
7. Dischargeability of Pre-Judgment Interest,
Treble Damages
Mulligan raised the issue of whether the enhanced
damages found by the State Court are non-dischargeable. The United States Supreme Court has deter­
mined that, “[w]hen construed in the context of the
statute as a whole, then, § 523(a)(2)(A) is best read to
prohibit the discharge of any liability arising from a
debtor’s fraudulent acquisition of money, property,
etc., including an award of treble damages for the
fraud.” Cohen v. de la Cruz, 523 U.S. 213, 220-21
(1998). The treble damages, prejudgment interest, and
offer of compromise interest were awarded based on
findings of statutory theft. These findings also support
a finding in this court of defalcation pursuant to
§ 523(a)(4). Each of the components of the State
Court’s damages award on these grounds are thus nondischargeable.
V.

Conclusion

The plaintiffs’ motion for summary judgment is
granted in part and accordingly, it is hereby:
ORDERED, that the motion for summary judg­
ment is granted as to Count II of the complaint and
judgment shall enter in favor of Bruce K. Jalbert and

App.39a

Pamela D. Jalbert, and against Lawrence R. Mulligan;
and it is further
ORDERED, that the State Court’s finding of
damages, treble damages and interest as to the claim
of statutory theft is hereby determined to be non-dischargeable pursuant to 11 U.S.C. § 523(a)(4); and it is
further
ORDERED, that the plaintiffs’ motion for sum­
mary judgment is denied as to Counts I, III and V.
Dated on October 27, 2017, at New Haven,
Connecticut.

/s/ Ann M. Nevins
United States Bankruptcy Judge
District of Connecticut

App.40a
ORDER OF THE CONNECTICUT SUPREME COURT
ON PETITION FOR CERTIFICATION TO APPEAL
(DECEMBER 3, 2014)
SUPREME COURT
STATE OF CONNECTICUT
BRUCE JALBERT, ET AL.,
v.
LAWRENCE MULLIGAN, ET AL.
No. PSC-14-0206
On consideration of the petition by the named
defendant for certification to appeal from the Appellate
Court (153 Conn. App. 124 [AC 35824]), it is hereby
ordered that said petition be, and the same is hereby
denied.
Eveleigh, J., did not participate in the discussion
or decision of this petition for certification
By The Court
Is/ Alan M. Gannuscio
Assistant Clerk-Appellate
Dated: 12/3/2014

App.41a
OPINION OF THE
APPELLATE COURT OF CONNECTICUT
(SEPTEMBER 23, 2014)
COURT OF APPEAL OF CONNECTICUT
BRUCE JALBERT, ET AL.
v.
LAWRENCE MULLIGAN, ET AL.
No. AC 35824
Appeal from Superior Court,
Judicial District of Waterbury, Shapiro, J.
Before: KELLER, MULLINS and SCHALLER, Js.
KELLER, J.
The defendant, Lawrence R. Mulligan, appeals
from the judgment, rendered after a court trial, in
favor of the plaintiffs, Bruce K. Jalbert and Pamela D.
Jalbert. 1 On appeal, he challenges as clearly erroneous
1 Although the operative complaint also named Renee T. Mulligan
and Bastille Estates, LLC, as defendants, the plaintiffs withdrew
their action with respect to those parties. Accordingly, we refer
to Lawrence R. Mulligan as the defendant in this appeal.
Additionally, we note that, at oral argument, the defendant
introduced himself as a self-represented party. The record never­
theless contains appearances on his behalf by the firms of Bai,
Pollock, Blueweiss & Mulcahey, P.C., and Slavin, Stauffacher &
Scott, LLC. The record reveals that approximately six months after
this appeal was commenced, the defendant filed an appearance

App.42a

the trial court’s findings as to (l) the assumption of a
defense by Chicago Title Insurance Company (Chicago
Title), (2) the barter agreement between the parties,
and (3) his retention of $135, 000 for legal fees
allegedly incurred. He further claims that (4) the
barter agreement between the parties is unenforce­
able, (5) a pleading deficiency bars recovery under the
Connecticut Unfair Trade Practices Act, General
Statutes § 42-110a et seq. (CUTPA), and (6) the court’s
erroneous findings of fact “result in clearly erroneous
judgments against” him. We affirm the judgment of
the trial court.
The following relevant findings of fact are set
forth in the court’s detailed memorandum of decision.
“The [plaintiffs] are husband and wife. Pamela Jalbert
did not graduate from high school and received a
[general equivalency diploma]. Bruce Jalbert is a
carpenter. The defendant acted as the plaintiffs’ attor­
ney between 1995 and 2008, [working on matters that
included] real estate transactions. He represented them
when they purchased their home at 35 Tolstoy Lane
in Southbury for $295, 000 in 2004. On the defendant’s
recommendation, they purchased title insurance from
[Chicago Title]. The defendant also handled Bruce
Jalbert’s father’s estate, including probate work and
real estate transactions.
herein. That appearance states that it is in addition to an
appearance already on file. The record further indicates that al­
though his counsel filed an appellate brief on his behalf on
December 19, 2013, the defendant filed a motion for permission
to file a substitute appellate brief on December 30, 2013. This
court granted that motion and the defendant thereafter filed a
substitute appellate brief. That brief, as well as the reply brief
filed by the defendant, is signed by the defendant alone.

App.43a
“The defendant was a close personal friend of the
[plaintiffs]. He testified that he and his wife and the
[plaintiffs] ‘were about as close as you would deem
family.’. . . During a ten year period, they had dinner
[153 Conn. App. 128] together, socialized at one
another’s homes, and traveled together. When they
purchased their home in 2004, the [plaintiffs] were
aware that a neighboring owner, Jean Elin, of 39
Tolstoy Lane, had an easement for a right-of-way over
their land. . . . Pamela Jalbert described it as a pass­
way to a summer cottage, to be used for three weeks
to three months out of the year, which was not to be
widened or maintained. In 2005, after friends of the
[plaintiffs] learned of an issue concerning rights to use
Tolstoy Lane and, as a result, decided not to purchase
39 Tolstoy Lane, the [plaintiffs] asked the defendant
to represent them concerning the easement issue.
“To compensate the defendant for his legal services,
the [plaintiffs] and the defendant agreed to a barter
system, contingent on whether Chicago Title provided
representation to the [plaintiffs]. They agreed that if
Chicago Title did not provide representation, the
parties would exchange Bruce Jalbert’s construction
work for the defendant’s legal services. If Chicago
Title did provide representation, then the defendant
would pay for Bruce Jalbert’s work. This agreement
was not put in writing.
“Between 2005 and 2007, Bruce Jalbert worked on
several renovation projects for the defendant, at
properties located in Connecticut, New York and Rhode
Island. The undisputed value thereof was $84, 750....
“Elin sold 39 Tolstoy Lane to Warren Enterprises,
LLC (Warren Enterprises), in May, 2006. Warren
Enterprises sued the [plaintiffs] in November, 2006,

App.44a
seeking access to Tolstoy Lane over the plaintiffs’
property (Warren Enterprises litigation). . . . After
receiving the suit papers, the defendant contacted
Chicago Title and then told Pamela Jalbert that Chicago
Title’s claims representative informed [him] that
Chicago Title was not going to provide representation
for the [plaintiffs]. As a result, Mrs. Jalbert asked the
defendant to represent them. He represented them at
court appearances in December, 2006, and February,
2007.
“After the second appearance in February, 2007,
the defendant informed the plaintiffs that Chicago
Title had hired Attorney Neil Marcus of the law firm
of Cohen & Wolf, P.C., ‘to help him.’... In fact, by
letter dated March 8, 2007 . .. Chicago Title informed
the defendant that it had retained Marcus to defend
the [plaintiffs], and that it would not be responsible
for any fees or expenses of any other counsel. Marcus
filed an appearance for the [plaintiffs] in the Warren
Enterprises litigation, in lieu of the defendant, in
March, 2007, to defend the [plaintiffs] against all counts
of the complaint in that matter. . . . The defendant did
not provide Chicago Title’s letter to the [plaintiffs],
and they saw it only after the Warren Enterprises liti­
gation was settled in April, 2008, and after they had
commenced suit against the defendant in this matter.
“In May, 2007, the defendant asked the plaintiffs
for $85,000 from Bruce Jalbert’s father’s trust (the
trust), in order to show Chicago Title that the plaintiffs
had paid the defendant for his work. According to the
defendant, he could not show Chicago Title that he

App.45a

had been paid by Bruce Jalbert’s work.2 The defendant
agreed to hold the $85, 000 in an escrow account, to be
returned to the trust after the settlement of the
Warren Enterprises litigation.... [T]he trust provided
the $85, 000, which the [plaintiffs] provided to the
defendant by personal check. . . . The defendant did
not return these funds.
“Prior to Marcus’ appearance, the defendant filed
no pleadings in the Warren Enterprises litigation.
Marcus filed pleadings after he appeared. Marcus then
worked with opposing counsel, who also had been
retained by a title insurance company, to settle the
Warren Enterprises litigation. No depositions were
taken and no motion practice occurred. As part of the
settlement, Warren Enterprises received a parcel on
the north side of the [plaintiffs’] property for use as a
driveway, and the [plaintiffs] received a parcel as a
buffer zone so that their neighbors could not build
near the [plaintiffs’] house. Also, $50, 000 each was
paid by Chicago Title and First American Title Insur­
ance Company, Warren Enterprises’ title company.
[A total of $100,000 in settlement funds was] depos­
ited in the defendant’s client funds account. . . . [T]he
defendant [retained] $50, 000 from the settlement.”
(Citations omitted; footnote added.)
Approximately two weeks after the Warren Enter­
prises litigation settled, Pamela Jalbert asked the
defendant to return the $85, 000 from the escrow
account. The defendant refused to do so, and this civil
action ensued. The operative complaint, the plaintiffs’
2 We reiterate that the court specifically found that the undisputed
value of the construction work performed by Bruce Jalbert on the
defendant’s properties was $84,750.

. App.46a
December 11, 2012 fourth revised complaint, contains
five counts alleging conversion, statutory theft in
violation of General Statutes § 52-564, violation of
CUTPA, fraud and larceny by false pretenses. In their
prayer for relief, the plaintiffs requested, inter alia,
monetary damages, treble damages pursuant to the
statutory theft count, prejudgment interest, costs and
reasonable attorney’s fees. The matter was tried
before the court over the course of two days in March,
2013, during which all parties testified.
In its memorandum of decision, the court began
its discussion by observing that “[t]he resolution of
this matter involves the court’s assessments of cred­
ibility and the fiduciary nature of the attorney-client
relationship.” Throughout its decision, the court
expressly credited the testimony of the plaintiffs. By
contrast, the court did not find the defendant’s testimony
to be credible, detailing numerous assertions and ex­
planations that the court found to be unpersuasive or
lacking in credibility. The court ultimately ruled in
favor of the plaintiffs on all but the fraud count,
concluding in relevant part that “[t]he evidence
is . . . clear and convincing that the defendant inten­
tionally and wrongfully took and withheld $135,000
from the plaintiffs. The defendant intentionally misled
them concerning the $85,000 payment from the trust.
The defendant intentionally misled the plaintiffs into
believing that his services were needed to defend them
in the Warren Enterprises litigation, and that he was
entitled to be paid therefor, causing them also to agree
that he would receive $50, 000 from the settlement.
He intentionally deprived them of those funds as
well.” The court further found that “[t]he evidence
before the court shows that the plaintiffs, who were

App.47a
not as well educated as the defendant, an attorney,
were misled by the defendant, who, at the time of the
events at issue, was their friend, attorney and fiduciary.
It is evident that he misled them to believe that
Chicago Title was not providing a defense and that
he had expended vast hours on their behalf in their
defense.... The defendant never paid for Bruce Jalbert’s
construction services. As a result, the plaintiffs suffered
an additional ascertainable loss of $84,750. . . . This
conduct... was unfair, immoral, unethical, oppressive,
and unscrupulous.” (Citation omitted.)
The court awarded the plaintiffs a total of $746,
821.11 in damages, which included treble damages on
the statutory theft count pursuant to § 52-564, treble
prejudgment interest pursuant to General Statutes
§§ 37-3a and 52-564, and CUTPA damages. The court
further determined that an award of attorney’s fees
was warranted in light of the CUTPA violation, and
thus granted the plaintiffs a period of fifteen days in
which to file an affidavit of attorney’s fees and
expenses. From that judgment, the defendant appealed
to this court. 3

3 Following the commencement of this appeal, the plaintiffs filed
a motion for attorney’s fees accompanied by a detailed affidavit
thereof, as well as a motion for additur seeking an award of offer
of compromise interest pursuant to General Statutes § 52-192a.
After a hearing, the court on August 29, 2013, granted both
motions and modified its judgment to reflect a total amount of
$821,664.92 in damages and $125,000 in attorney’s fees awarded
to the plaintiffs. The defendant did not amend his appeal to chal­
lenge any aspect of that modified award. In this appeal, the
defendant likewise does not contest the court’s calculation of
damages in any manner.

App.48a
On appeal, the defendant primarily challenges
various factual findings rendered by the court. The
standard of review governing such claims is well
established. “[I]t is axiomatic that [t]he trial court’s
[factual] findings are binding upon [an appellate]
court unless they are clearly erroneous in light of the
evidence and the pleadings in the record as a whole.
... We cannot retry the facts or pass on the credibility
of the witnesses. ... A finding of fact is clearly erro­
neous when there is no evidence in the record to sup­
port it... or when although there is evidence to sup­
port it, the reviewing court on the entire evidence is
left with the definite and firm conviction that a
mistake has been committed.” (Internal quotation marks
omitted.) Greco v. Greco, 275 Conn. 348, 359, 880 A.2d
872 (2005). With that standard in mind, we turn to the
defendant’s claims.
I
The defendant challenges as clearly erroneous
certain findings pertaining to Chicago Title’s assump­
tion of a defense on behalf of the plaintiffs in the
Warren Enterprises litigation. Specifically, the defend­
ant claims that the court erroneously found that he
deceived the plaintiffs into believing that Chicago
Title had declined to furnish such a defense, particu­
larly when, he alleges, Marcus advised them to the
contrary. For two distinct reasons, his claims fail.
First, our appellate courts repeatedly have recog­
nized that “[w]e are not required to review claims that
are inadequately briefed.... We consistently have held
that [a]nalysis, rather than mere abstract assertion,
is required in order to avoid abandoning an issue by
failure to brief the issue properly. . . . [F]or this court

App.49a
judiciously and efficiently to consider claims of error
raised on appeal. . . the parties must clearly and fully
set forth their arguments in their briefs. We do not
reverse the judgment of a trial court on the basis of
challenges to its rulings that have not been ade­
quately briefed. . . . The parties may not merely cite a
legal principle without analyzing the relationship
between the facts of the case and the law cited. . . .
Where the parties cite no law and provide no analysis
of their claims, we do not review such claims. (Internal
quotation marks omitted.) Russell v. Russell, 91 Conn.
App. 619, 634—35, 882 A.2d 98, cert, denied, 276 Conn.
924, 925, 888 A.2d 92 (2005). The defendant’s appel­
late brief fails to cite to any legal authority in regard
to these claims. Rather, his brief consists entirely of
bald assertions unaccompanied by substantive analy­
sis thereof. As a result, the defendant has not
adequately briefed those issues.
Second, even assuming the claims were ade­
quately briefed, the record before us contains ample
evidence substantiating the court’s findings. At trial,
Pamela Jalbert was asked whether the plaintiffs were
notified that Chicago Title had agreed to represent
them in the Warren Enterprises litigation. She testified
that shortly after she was served with legal process
in the Warren Enterprises litigation, the defendant
informed her that he had contacted Chicago Title and
that Chicago Title responded that “they weren’t going
to represent us.”4 Later in her testimony, the following
colloquy ensued:

4 The defendant testified at trial that he learned that Chicago
Title had hired counsel to represent the plaintiffs “[i]n September

App.50a
“[The Plaintiffs’ Counsel]:.. . [D]id you know
that in March of 2007 [the defendant] had
received ... a letter from Chicago Title that
said that Chicago Title was hiring [the law
firm of] Cohen &Wolf to defend you?
“[Pamela Jalbert]: No. [The defendant] kept
telling us that our title company was not
representing us. ...
“[The Plaintiffs’ Counsel]:... [W]hat was your
understanding regarding Chicago Title’s part
of this case?
“[Pamela Jalbert]: That they were not repre­
senting us. That they had hired Neil Marcus
to help [the defendant] and that the title
company was not representing us. I did not
find out that they were representing us until
after we sued [the defendant], after we
started this lawsuit. Then, subsequently,
when he turned over his files, we found out
that. .. they were representing us. But [the
defendant] kept telling us from day one up
until the end, even when we settled, he kept
telling us the title company wasn’t repre­
senting us [and that] [w]e need to sue them
for failure to represent.”
In addition, the March 8, 2007 letter from Chicago
Title to the defendant, in which it formally notified the
defendant that it would be providing a defense on
behalf of the plaintiffs, was admitted into evidence at
trial. Pamela Jalbert testified that the defendant
or October, 2006.” The Warren Enterprises litigation commenced
in November, 2006.

App.51a
never showed her and her husband that letter or
conveyed its substance to them. She further testified
that “if we had known that Chicago Title was repre­
senting us from day one, we would have had no reason
to hire [the defendant]. There would have been no
barter agreement, there wouldn’t have been any
exchange of money because Chicago Title would have
been representing us, so we would have had repre­
sentation. There would have been no need for any of
it. . . . [W]e wouldn’t have had to have [the defendant]
as our attorney.” “It is well established that [i]n a case
tried before a court, the trial judge is the sole arbiter
of the credibility of the witnesses and the weight to be
given specific testimony.” (Internal quotation marks
omitted.) United Technologies Corp. v. East Windsor,
262 Conn. 11, 26, 807 A.2d 955 (2002). As trier of fact,
the court was “free to accept or reject, in whole or in
part, the testimony offered by either party.” (Internal
quotation marks omitted.) DiVito v. DiVito, 77 Conn.
App. 124, 138, 822 A.2d 294, cert, denied, 264 Conn.
921, 828 A.2d 617 (2003). The court thus was entitled
to credit the aforementioned testimony of Pamela
Jalbert.
The record also contains evidence belying the
defendant’s assertion that “all the evidence commands
the conclusion” that Marcus had advised the plaintiffs
that Chicago Title was providing a defense on their
behalf in lieu of the defendant. The court thoughtfully
considered, and rejected, this argument, finding it
unpersuasive. We concur. Marcus testified that, after
filing an appearance on behalf of the plaintiffs, the
defendant “requested that I communicate with the
[plaintiffs] through him, and that... if we needed to

App.52a
meet with the [plaintiffs], he would set up the appoint­
ment, he would attend any of our meetings. Essen­
tially, he was asking that he be the filter between the
[plaintiffs] and me.” Pamela Jalbert similarly testified
that, after informing the plaintiffs that Marcus had
been retained to “help him” with their defense, the
defendant “told us not to speak with ’’Marcus. As a
result, the vast majority of communications between
Marcus and the plaintiffs “went through” the defend­
ant. Marcus further testified that “[a]s we were reaching
the final throes of the settlement agreement, it became
apparent to me that the communications were not
working because I was getting a response allegedly
from the [plaintiffs], which was coming through [the
defendant], that didn’t make sense . . . because it was
not, in my opinion at the time, in the [plaintiffs’] best
interest. . . . [A]t some point I realized that I had to
talk directly to the [plaintiffs], and that was my eyeopener, that I realized that the communications weren’t
working.... I spoke to them directly ... and at that
point I realized that they had been somewhat
confused. They really, at that point, felt that [the defend­
ant] was representing them. ...” Marcus’ testimony
substantiates the court’s finding that the plaintiffs
were not aware that Chicago Title had assumed their
defense in lieu of the defendant. We thus cannot say
that the court’s finding was clearly erroneous.5
5 We likewise disagree with the defendant that the issue of
whether Chicago Title would defend the plaintiffs in the Warren
Enterprises litigation was irrelevant to the court’s consideration
of his receipt of legal fees. The court specifically found that the
plaintiffs had asked him to represent them in the Warren Enter­
prises litigation as a direct result of his false representation that
a claims representative of Chicago Title had informed him that
Chicago Title would not provide a defense on their behalf. That

App.53a
II
The defendant also contests the court’s findings
with respect to the barter agreement between the
parties. In its memorandum of decision, the court
found in relevant part: “The defendant acknowledges
that he had a barter agreement with Bruce Jalbert.
. . . However, he disagrees with the plaintiffs’ conten­
tions as to its terms and whether it continued until the
settlement of the Warren Enterprises litigation. Under
the barter agreement, the defendant agreed to pay for
Bruce Jalbert’s construction services if Chicago Title
provided a defense to the Jalberts.. . . [T]he defendant
misled the plaintiffs so that they were not aware that
Marcus was defending them on behalf of Chicago
Title. The court credits the plaintiffs’ contentions that
the barter agreement involved an exchange of services
finding is supported by the record before us. As Pamela Jalbert
testified at trial, “if we had known that Chicago Title was repre­
senting us from day one, we would have had no reason to hire
[the defendant], . . . [W]e wouldn’t have had to have [the defend­
ant] as our attorney.” In addition, the court found that when
Marcus commenced his representation of the plaintiffs, the
defendant falsely advised them that Chicago Title had hired
Marcus “to help him.” That representation by the defendant is
contrary to the undisputed evidence that Marcus had filed an
appearance on their behalf in lieu of the defendant and that
Chicago Title’s March 8, 2007 letter to the defendant specifically
apprised the defendant that “[p]ursuant to the terms and
conditions of the policy ... we have retained Neil Marcus, Esq. of
the law firm of Cohen & Wolf, P.C., to defend the interest of the
[plaintiffs] with respect to the challenge to title as insured. We will
not be responsible for any fees or expenses of any other counsel.
Neil Marcus, Esq. is primarily responsible for handling the
matter . . . .” In light of the foregoing, we conclude that the court
properly considered Chicago Title’s assumption of a defense in
evaluating the propriety of the defendant’s receipt of legal fees in
the present case.

App.54a
based on hours expended, without, as contended by
the defendant, adjustment by an hourly rate differential
which recognized that the defendant’s hourly rates
were considerably higher than Bruce Jalbert’s hourly
rates. This was an arrangement between close friends,
where the defendant previously had represented the
plaintiffs in the purchase of their home, when they
obtained the title insurance recommended by the
defendant.” (Citations omitted.)
The record before us contains evidence substan­
tiating those findings. In particular, Pamela Jalbert
testified at trial that her husband “was already
working for [the defendant] at his Meadow Road house
in Woodbury. And [the defendant] was in our kitchen
and he said, I came up with an idea, let’s—since you’re
already working for me, Bruce, why don’t we work out
a barter system. That if the title company represents
you, all right. Then if [the title company] does not
represent you, we’ll do service for service, legal work
for carpentry work. If they do represent you, then
Bruce would get paid, [the defendant] would pay Bruce
for all the work that he did. So, that was the barter
agreement that they came up with.” Bruce Jalbert
similarly testified at trial that he never provided any
estimates to the defendant for the various work he
performed at the defendant’s properties “[b]ecause of
the nature of our barter agreement, it was strictly a
service for service deal. There was never any question
about whose service was worth more or whose was
worth less. It was, I do this for you, you do this for me.”

App.55a
The gist of the defendant’s claim is that he offered
evidence that conflicted with that offered by the plain­
tiffs, which the court should have credited.® His argu­
ment reflects a fundamental misunderstanding of the
applicable standard by which we review his claim.
Under the clearly erroneous standard of review, an
appellate tribunal does not weigh the quantum of evi­
dence submitted; it simply inquires as to whether
there is any evidence in the record to support a given
finding, or whether the tribunal otherwise is definitely
and firmly convinced that a mistake has been made.
See Getty Petroleum Marketing, Inc. v. Ahmad, 253
Conn. 806, 811, 757 A.2d 494 (2000).
At its essence, the defendant’s claim asks this
court to engage in an independent review of the
credibility of the respective parties. That we cannot
do. “[I]t is well established that the evaluation of a
witness’ testimony and credibility are wholly within
the province of the trier of fact. .. . Credibility must be
assessed . . . not by reading the cold printed record,
but by observing firsthand the witness’ conduct,
demeanor and attitude. . . . An appellate court must
® In his reply brief, the defendant acknowledges the central
tenets of the clearly erroneous standard of review, noting that
findings of fact “must stand if, on the basis of the evidence before
the court and the reasonable inferences to be drawn from that
evidence, a trier of fact reasonably could have found as it did.”
(Internal quotation marks omitted.) The defendant then submits:
“The reverse is also true. If the trier of fact could not have found
as he did because the weight of the evidence prohibiting the conclu­
sion is so great as to alert the appellate court [that] an error has
occurred, the finding must be reversed.” He provides no authority
for his novel assertion that application of the clearly erroneous
standard compels consideration of “the weight of the evidence,”
nor can we uncover any under Connecticut law.

App.56a
defer to the trier of fact’s assessment of credibility
because [i]t is the [fact finder] ... [who has] an oppor­
tunity to observe the demeanor of the witnesses and
the parties; thus [the fact finder] is best able to judge
the credibility of the witnesses and to draw necessary
inferences therefrom.” (Citation omitted; internal quo­
tation marks omitted.) Schoenborn v. Schoenborn, 144
Conn. App. 846, 851, 74 A. 3d 482 (2013). For that
reason, “[i]n reviewing factual findings, [w]e do not
examine the record to determine whether the [court]
could have reached a conclusion other than the one
reached.... Instead, we make every reasonable pre­
sumption ... in favor of the trial court’s ruling.”
(Internal quotation marks omitted.) Murtha v.
Hartford, 303 Conn. 1, 13, 35 A.3d 177 (2011).
Although the defendant offered conflicting docu­
mentary and testimonial evidence at trial, the memo­
randum of decision plainly indicates that the court
rejected that evidence and instead chose to credit that
presented by the plaintiffs. Such is the exclusive
prerogative of the trier of fact, with which this court
will not interfere on appeal. See Ravetto v. Triton
Thalassic Technologies, Inc., 285 Conn. 716, 728, 941
A.2d 309 (2008) (appellate court must defer to trier of
fact’s assessment of credibility); Klein v. Chatfield,
166 Conn. 76, 80, 347 A.2d 58 (1974) (“trier is privileged
to adopt whatever testimony it reasonably believes to
be credible”); Talton v. Warden, 33 Conn. App. 171, 179,
634 A.2d 912 (1993) C‘[w]e cannot. . . pass on the cred­
ibility of a witness”), aff d, 231 Conn. 274, 648 A.2d 876
(1994). Because there is supporting evidence in the
record and we are not convinced that a mistake was
made, the court’s findings with respect to the barter

App.57a

agreement between the parties are not clearly
erroneous.

Ill
The defendant also challenges the court’s findings
with respect to his retention of $135,000 for legal
services he allegedly provided the plaintiffs in the
Warren Enterprises litigation. In its memorandum of
decision, the court found, inter alia, that (l) the barter
agreement “involved an exchange of services based on
hours expended, without. . . adjustment by an hourly
rate differential”; (2) under the barter agreement, the
defendant would be compensated for his work in the
Warren Enterprises litigation, by way of construction
services, only if Chicago Title declined to provide a
defense to the plaintiffs; and (3) “the defendant
converted the $85,000 which he [obtained] from the
trust [and] also converted the $50,000 [he retained]
from the Warren Enterprises litigation settlement.”
We already have concluded in part II of this opinion
that the court’s findings with respect to the barter
agreement are not clearly erroneous. As a result,
given Chicago Title’s representation of the plaintiffs
in the Warren Enterprises litigation, the court reason­
ably found that the defendant was not entitled to any
compensation thereunder. 7
The defendant nonetheless maintains that the
court improperly found that he was not entitled to any
compensation for work performed prior to Chicago
Title’s assumption of a defense. Apart from the terms
7 Indeed, the defendant in his reply brief acknowledges that this
court’s resolution of the barter agreement issue “will determine
the result of this appeal.”

App.58a

of the barter agreement, we note that the court also
concluded that the defendant failed to provide credible
evidence to establish that he was, in fact, entitled to
such compensation. The court found the defendant’s
testimonial and documentary evidence regarding his
legal fees to be wholly lacking in credibility. As it
stated: “The defendant’s credibility, including his state­
ments made in documents related to billing, is under­
mined by his acknowledged backdating of a retainer
agreement with the [plaintiffs]. In his testimony, the
defendant stated that he prepared a retainer agreement
for the [plaintiffs] to sign in March, 2007 . . . but dated
it February, 2005, more than two years earlier. ... He
stated that he did so ‘[b]ecause I felt it would be
helpful to have a memorialization of our agreement in
the beginning of the file for purposes of our ultimate
claim against Chicago Title.’... Although the document
states that Bruce Jalbert signed it in February, 2005, the
defendant testified that Bruce Jalbert signed it in
March, 2007. .. . The defendant also testified that, at
the time he wrote this letter, he knew that Chicago
Title had provided a defense for the [plaintiffs].... The
letter stated, in its first sentence, ‘Chicago Title may
not provide you with a defense against the claims
brought by Jean Elin to cross your property.’ This
letter also does not mention the barter agreement
which was in effect when the defendant wrote it.
.. . According to the defendant, he drafted the letter in
March, 2007, to be correct as of February, 2005. His
fabrication of the document undermines the defend­
ant’s credibility.
“Other examples of misleading documents created
by the defendant also undermine his credibility and
his arguments about being entitled to be paid for legal

App.59a
services. He prepared a letter addressed to the [plain­
tiffs], dated May 30, 2007, in which he stated that he
‘and his paralegal combined have in excess of 460
hours at our regular rate per hour for my time and $55
dollars per hour for my paralegal’s time resulting in a
total more than $140,000 for my time and about
$25,000 for paralegal time and expenses to date.’
... In the next paragraph, the defendant stated that
he and the [plaintiffs] had ‘come to a resolution for a
flat fee of $130,000 for all legal fees to date, and
$25,000 for paralegal fees and expenses.’ The last
sentence of this letter states, ‘I look forward to
receiving your first payment in this regard.’ At trial,
the defendant testified that his paralegal on the case
was Pamela Jalbert. .. . Thus, the letter was a bill to
the [plaintiffs], which included charging them for
Pamela Jalbert’s own work. In contradiction to his
own letter, the defendant testified that ‘[i]t was not my
intention that the [plaintiffs] would be paying my
legal fees out-of-pocket at any time.’. .. The court does
not credit the statement in the letter or the defend­
ant’s trial testimony that an agreement was reached
for payment to the defendant of a flat fee.
“The misleading statements in his May 30, 2007
letter were followed five days later by the defendant’s
June 4, 2007 letter and statement of account to the
[plaintiffs] for professional services from February 19,
2005, to February 12, 2007.... In the June 4, 2007
letter, the defendant stated, incredibly, that he reduced
the total time reflected since the fees were escalating
‘at a very rapid pace.’ The statement again billed for
paralegal time. In contrast to the May 30, 2007 letter,
which billed for in excess of 460 hours of attorney and
paralegal time, the June 4, 2007 statement billed for

App.60a
877.75 hours of the defendant’s time, an increase of
over 410 hours. The defendant stated that he did not
have contemporaneous time records to support either
amount; instead, he leafed through the file and came
up with a number. . . . The defendant’s testimony
that both numbers were ‘reasonably accurate’. . .
lacks credibility. Similarly lacking in credibility is the
sheer amount of the bill, $209,445.97.” (Citations
omitted; emphasis omitted.)
In his reply brief, the defendant alleges that “all
fees billed by and earned by him were earned prior to
Chicago [Title] assuming [the] plaintiffs’ defense, and
no fees were billed nor any received after [it] assumed
[that] defense in March, 2007 ....” (Citations omitted;
emphasis omitted.) The court nevertheless found that
“[t]he evidence . . . does not establish that the defend­
ant provided legal services in connection with the
Warren Enterprises litigation which were worth [the]
payment of $85, 000 [made by the plaintiffs from the
trust]. The defendant did not engage in discovery,
such as taking or defending depositions, or prepare
witnesses, or prepare for trial, or represent the [plain­
tiffs] at trial. By comparison, Marcus, who represented
the [plaintiffs] in the Warren Enterprises litigation for
about one year, billed approximately $10,800 for his
services. . . . The defendant’s claimed legal work was
unsupported by contemporaneous time records, and he
acknowledged that it included an inordinate amount
of time reviewing deeds. . . . The court is unpersuaded
by his assertions about the value of and the extent of
the legal work he claims to have performed.”8 (Citation
8 As but one example, we note that the defendant testified at
trial that he spent 312 hours reviewing deeds on behalf of the
plaintiffs in 2005-the year before Warren Enterprises filed suit

App.61a
omitted.) Those factual findings all are supported by
the record before us. As such, they are not clearly
erroneous.
IV
Despite the fact that none of the causes of action
contained in the plaintiffs’ complaint sound in breach
of contract, the defendant contends that the barter
agreement is unenforceable because (l) “no consider­
ation was given by [the plaintiffs] to [the] defendant”
and (2) its terms were not definite and certain. That
claim requires little discussion, as the defendant did
not preserve it before the trial court. Our rules of prac­
tice require a party, as a prerequisite to appellate
review, to distinctly raise its claim before the trial
court. See Practice Book § 5-2 (“[a]ny party intending
to raise any question of law which may be the subject
of an appeal must. . . state the question distinctly to
the judicial authority”); see also Practice Book § 60-5
(“[t]he court shall not be bound to consider a claim
unless it was distinctly raised at the trial or arose
subsequent to the trial”). “We have repeatedly held
that this court will not consider claimed errors on the
part of the trial court unless it appears on the record
that the question was distinctly raised at trial and was
ruled upon and decided by the court adversely to the
appellant’s claim.” (Internal quotation marks omit­
ted.) McGuire v. McGuire, 102 Conn. App. 79, 87, 924
A.2d 886 (2007). To review a claim advanced for the
first time on appeal and not raised before the trial
court amounts to a trial by ambuscade of the trial
judge. Liberty Mutual Ins. Co. v. Lone Star Industries,
against the plaintiffs. The defendant further testified that he
spent 758 hours reviewing deeds on behalf of the plaintiffs in 2006.

App.62a

Inc., 290 Conn. 767, 798, 967 A.2d 1 (2009). We there­
fore decline to afford review of this unpreserved
contention.
V
As best we can comprehend, the defendant also
argues that the court improperly found a CUTPA
violation stemming from his failure to pay for the
construction services that Bruce Jalbert had rendered
on his properties. Amidst a sea of abstract assertion
set forth in part II of his appellate brief-which is titled,
“The Trial Court Made Clearly Erroneous Findings
that the Assumption of Defense by Chicago Was
Relevant to Defendant’s Receipt of Fees and that
Plaintiff Was Not Aware of its Assumption”—comes
a mere sentence regarding an alleged CUTPA plead­
ing deficiency. The brief states: “Since even if the court
had been correct [in awarding CUTPA damages], no
such judgment could enter as there was no allegation
or claim for carpentry fees set forth in the plaintiffs’
complaint, the estimate [of construction costs] went
unchallenged.”
To the extent that the defendant submits that
this sentence sets forth a distinct ground of appeal, it
is the quintessence of inadequacy. The statement of
issues makes no mention of that claim. The brief does
not contain a separate heading regarding this point of
contention, nor does it identify the applicable stan­
dard of review, in contravention of the mandates of
Practice Book § 674 (d). Further, the brief cites no
legal authority to support the allegation contained
therein.
“In Connecticut, our appellate courts do not pre­
sume error on the part of the trial court.” Brett Stone

App.63a
Painting & Maintenance, LLC v. New England Bank,
143 Conn. App. 671, 681, 72 A.3d 1121 (2013). Rather,
the burden rests with the appellant to demonstrate
reversible error. Brookfield v. Candle wood Shores
Estates, Inc., 201 Conn. 1, 7, 513 A.2d 1218 (1986)
(“[t]he burden is on the appellant to prove harmful
error”); Harlow v. Stickels, 151 Conn. App. 204, 210,
__ A.3d
(2014) C‘[a]n appellant bears the burden
to show that there was error from which she appeals”).
Such bald assertion as that set forth in the sentence
previously quoted, divorced from any meaningful
analysis or compliance with the strictures of our rules
of practice, does not satisfy that burden.
VI
As a final matter, the defendant claims that the
court’s erroneous findings of fact “result in clearly
erroneous judgments against” him. Once again, the
defendant has failed to furnish a discussion of any
legal authority whatsoever in support of his claim,
which consists entirely of abstract assertion. His brief
contains no application of facts to the elements of the
various causes of action on which the court ruled in
favor of the plaintiffs. See Grasso v. Connecticut Hospice,
Inc., 138 Conn. App. 759, 769, 54 A.3d 221 (2012). “We
do not reverse the judgment of a trial court on the
basis of challenges to its rulings that have not been
adequately briefed. . . . [Assignments of error which
are merely mentioned but not briefed beyond a state­
ment of the claim will be deemed abandoned and will
not be reviewed by this court.” (Internal quotation
marks omitted.) Paoletta v. Anchor Reef Club at
Branford, LLC, 123 Conn. App. 402, 406, 1 A.3d 1238,
cert, denied, 298 Conn. 931, 5 A.3d 491 (2010). To the
extent that the concluding portion of the defendant’s

App.64a

appellate brief may be construed as anything but a
summation of his prior points of contention, they do
not merit further review.
The judgment is affirmed.
In this opinion the other judges concurred.

App.65a
MEMORANDUM DECISION OF
THE SUPERIOR COURT
(JUNE 11, 2013)
SUPERIOR COURT
J.D. OF WATERBURY, AT WATERBURY
BRUCE K. JALBERT, ET AL.,
v.
LAWRENCE R. MULLIGAN, ET AL.
Docket No. UWY CV-08-6001044 S
Before: Robert B. SHAPIRO,
Judge of the Superior Court.
This matter was tried to the court on March 12-14,
2013. Thereafter, in lieu of oral argument, the parties
presented post-trial briefs, filed on May 15, 2013. After
consideration, the court issues this memorandum of
decision.
I. Background
In count one of their five count fourth revised
complaint (#166) (complaint), the plaintiffs, Bruce K.
Jalbert and Pamela D. Jalbert (hereinafter referred to
as the plaintiffs or the Jalberts), allege that their
former attorney, defendant Lawrence R. Mulligan, Esq.,
is liable for converting funds in the course of repre­
senting them concerning a real property dispute
between neighbors. In count two, the plaintiffs allege

App.66a
that the defendant is liable for statutory theft, pursu­
ant to General Statutes § 52-564.1 In count three, the
plaintiffs allege that the defendant’s conduct in his
legal representation and billing concerning that the
property dispute violated the Connecticut Unfair
Trade Practices Act, General Statutes § 42-110a et seq.
In count four, the plaintiffs claim that the defend­
ant is liable for fraud. In count five, they allege he
made false representations and/or statements, as a
result of which he received something of value from
the plaintiffs without compensating them.
The Jalberts are husband and wife. Pamela Jalbert
did not graduate from high school and received a GED.
Bruce Jalbert is a carpenter. The defendant acted
as the plaintiffs’ attorney between 1995 and 2008,
including on real estate transactions. He represented
them when they purchased their home at 35 Tolstoy
Lane in Southbury, Connecticut, for $295,000, in 2004.
On the defendant’s recommendation, they purchased
title insurance from Chicago Title Insurance Company
(Chicago Title). The defendant also handled Bruce
Jalbert’s father’s estate, including probate work and
real estate transactions.
The defendant was a close personal friend of the
Jalberts. He testified that he and his wife and the
Jalberts “were about as close as you would deem
family.” See Trial Transcript, March 12, 2013, p. 122
(hereafter, Tr., March,__ , 2013, p.__J. During a ten

1 Section 52-564 provides, “Any person who steals any property
of another, or knowingly receives and conceals stolen property,
shall pay the owner treble his damages.”

App.67a

year period, they had dinner together, socialized at
one another’s homes, and traveled together.
When they purchased their home in 2004, the
Jalberts were aware that a neighboring owner, Jean
Elin, of 39 Tolstoy Lane, had an easement for a right
of way over their land. See Plaintiffs’ Exhibit 4 (here­
after, Plff. Exh.___). Pamela Jalbert described it as a
passway to a summer cottage, to be used for three
weeks to three months out of the year, which was not
to be widened or maintained. In 2005, after friends of
the Jalberts learned of an issue concerning rights to
use Tolstoy Lane and, as a result, decided not to pur­
chase 39 Tolstoy Lane, the Jalberts asked the defendant
to represent them concerning the easement issue.
To compensate the defendant for his legal services,
the Jalberts and the defendant agreed to a barter
system, contingent on whether Chicago Title provided
representation to the Jalberts. They agreed that, if
Chicago Title did not provide representation, the
parties would exchange Bruce Jalbert’s construction
work for the defendant’s legal services. If Chicago
Title did provide representation, then the defendant
would pay for Bruce Jalbert’s work. This agreement
was not put in writing.
Between 2005 and 2007, Bruce Jalbert worked on
several renovation projects for the defendant, at
properties located in Connecticut, New York and Rhode
Island. The undisputed value thereof was $84,750. See
Plff Exh. 17 (summary).
Elin sold 39 Tolstoy Lane to Warren Enterprises,
LLC (Warren Enterprises) in May 2006. Warren
Enterprises sued the Jalberts, in November 2006,
seeking access to Tolstoy Lane over the plaintiffs’

App.68a
property (Warren Enterprises litigation). See Plff.
Exh. 6. After receiving the suit papers, the defendant
contacted Chicago Title and then told Pamela Jalbert
that Chicago Title’s claims representative informed
the defendant that Chicago Title was not going provide
representation for the Jalberts. As a result, Mrs.
Jalbert asked the defendant to represent them. He
represented them at court appearances in December
2006 and February 2007.
After the second appearance in February 2007,
the defendant informed the Jalberts that Chicago Title
had hired Attorney Neil Marcus of the law firm of
Cohen &Wolf, P.C. “to help him.” See Tr., March 12,
2013, p. 38. In fact, by letter dated March 8, 2007 (Plff.
Exh. 9), Chicago Title informed the defendant that it
had retained Marcus to defend the Jalberts, and that
it would not be responsible for any fees or expenses of
any other counsel. Marcus filed an appearance for the
Jalberts in the Warren Enterprises litigation, in lieu of
the defendant, in March 2007, to defend the Jalberts
against all counts of the complaint in that matter. See
Plff. Exh. 45. The defendant did not provide Chicago
Title’s letter to the Jalberts and they saw it only after
the Warren Enterprises litigation was settled in April
2008 and after they had commenced suit against the
defendant in this matter.
In May 2007, the defendant asked the plaintiffs
for $85,000 from Bruce Jalbert’s father’s trust (the
trust), in order to show Chicago Title that the Jalberts
had paid the defendant for his work. According to the
defendant, he could not show Chicago Title that he
had been paid by Bruce Jalbert’s work. The defendant
agreed to hold the $85,000 in an escrow account, to be
returned to the trust after the settlement of the

App.69a

Warren Enterprises litigation. As discussed further
below, the trust provided the $85,000, which the
Jalberts provided to the defendant by personal check.
See Plff Exh. 30. The defendant did not return these
funds.
Prior to Marcus’ appearance, the defendant filed
no pleadings in the Warren Enterprises litigation.
Marcus filed pleadings after he appeared. Marcus then
worked with opposing counsel, who also had been
retained by a title insurance company, to settle the
Warren Enterprises litigation. No depositions were
taken and no motion practice occurred.
As part of the settlement, Warren Enterprises
received a parcel on the north side of the Jalberts’
property for use as a driveway and the Jalberts received
a parcel as a buffer zone so that their neighbors could
not build near the Jalberts’ house. Also, $50,000 each
was paid by Chicago Title and First American Title
Insurance Company, Warren Enterprises’ title com­
pany. These funds were deposited in the defendant’s
client funds account. As discussed further below, the
defendant received $50,000 from the settlement.
The court discusses the evidence further below.
II. Discussion
The resolution of this matter involves the court’s
assessments of credibility and the fiduciary nature of
the attorney-client relationship. “In a case tried before
a court, the trial judge is the sole arbiter of the
credibility of the witnesses and the weight to be given
specific testimony.” (Internal quotation marks omitted.)
Gianetti v. Norwalk Hospital, 304 Conn. 754, 780, 43
A.3d 567 (2012). “A trier of fact is free to reject

App.70a
testimony even if it is uncontradicted ... and is equally
free to reject part of the testimony of a witness even if
other parts have been found credible.” (Internal quo­
tation marks omitted.) Torosyan v. Boehringer Ingelheim Pharmaceuticals, Inc., 234 Conn. 1,12, 662 A.2d
89 (1995). “[Tjhe credibility of witnesses, the findings
of fact and the drawing of inferences are all within the
province of the trier of fact.” (Internal quotation marks
omitted.) Keeney v. Buccino, 92 Conn. App. 496, 513,
885 A.2d 1239 (2005).
“[T]he relationship between an attorney and client
must involve personal integrity and responsibility on
the part of the lawyer and an equal confidence and
trust on the part of the client. . .. The relationship
between an attorney and his client is highly fiduciary
in its nature and of a very delicate, exacting, and con­
fidential character, requiring a high degree of fidelity
and good faith.” (Citations omitted; footnote omitted;
internal quotation marks omitted.) Matza v. Matza,
226 Conn. 166, 183-84, 627 A.2d 414 (1993).
A.

Count One-Conversion

Conversion “is an unauthorized assumption and
exercise of the right of ownership over property belong­
ing to another, to the exclusion of the owner’s rights.”
Mystic Color Lab, Inc. v. Auctions Worldwide, LLC,
284 Conn. 408, 418, 934 A.2d 227 (2007). “The intent
required for a conversion is merely an intent to exer­
cise dominion or control over an item even if one
reasonably believes that the item is one’s own.” Plikus
v. Plikus, 26 Conn. App. 174, 180, 599 A.2d 392 (1991).
The plaintiffs’ burden to prove conversion is by clear
and convincing evidence. See Suarez-Negrete v. Trotta,
47 Conn. App. 517, 518, 705 A.2d 215 (1998).

App.71a
“To establish a prima facie case of conversion, [a]
plaintiff ha[s] to demonstrate that (l) the material at
issue belonged to the plaintiff, (2) that [the defendant]
deprived the plaintiff of that material for an indefinite
period of time, (3) that [the defendant’s] conduct was
unauthorized and (4) that [the defendant’s] conduct
harmed the plaintiff’ (Internal quotation marks omit­
ted.) Coster v. Duquette, 119 Conn. App. 827, 832, 990
A.2d 362 (2010). “There may be a conversion by a
wrongful taking, by an illegal assumption of owner­
ship, by an illegal user or misuse, or by any other form
of possession wrongfully obtained. Furthermore, a
wrongful detention, even though possession was right­
fully obtained, may constitute conversion.” Bruneau v.
W. & W. Transportation Co., 138 Conn. 179, 182-83,
82 A.2d 923 (1951).
“Under our case law, [m]oney can clearly be subject
to conversion.” (Internal quotation marks omitted.)
Deming v. Nationwide Mutual Ins. Co., 279 Conn. 745,
771, 905 A.2d 623 (2006).
The court credits the plaintiffs’ contentions that
the $85,000 from the trust was paid to the defendant,
in response to his request, in order to enable him prove
to Chicago Title that the Jalberts had incurred legal
fees, and had paid the defendant that amount for his
legal services in connection with the Warren Enter­
prises litigation, and that the defendant promised to
hold those funds in escrow and to return them to the
plaintiffs. In contrast, the defendant’s explanation of
the parties’ understanding as to the May 2007 pay­
ment to the defendant of the $85,000 lacks credibility.
The evidence is clear and convincing that the plaintiffs
were misled by the defendant into providing the
$85,000 payment. Likewise, the plaintiffs’ authorization

App.72a
of payment of $50,000 to the defendant from the
settlement of the Warren Enterprises litigation also
stemmed from misleading conduct by the defendant,
by which he caused them to believe that he was repre­
senting their interests in that matter and that
Chicago Title had refused to do so.
The defendant relies on his May 2007 correspon­
dence to Paul McNinch of American Guaranty & Trust
Company (Plff. Exhs. 25-26), which he argues sets forth
a summary of the situation, why and how he was
entitled to the $85,000 payment, and that Bruce
Jalbert agreed thereto, as evidenced by his signature.
In the first of these letters, dated May 9, 2007 (Plff.
Exh. 25), the defendant asserted that he saw the
Warren Enterprises litigation as “a money machine,”
and that legal fees in the amount of $200,000 will be
incurred by both parties. The defendant added that,
“[t]he litigation itself is going to take us to Cleveland,
Ohio and Bangor, Maine in order to take depositions
of persons who owned the property earlier in time.”
In the May 9, 2007 letter, the defendant sought
$85,000 in order to continue to work on the Jalberts’
behalf to settle the property dispute, noting that
Chicago Title had been “dragging its heals [sic].” He
also stated that “[t]his distribution is made on the
condition that in our litigation against Chicago Title
any of those funds which we recover, from the AGT
funds, would be sent back to AG &T for redeposit into
the Trust Fund. This can be a part of the distribution
condition and Mr. Jalbert is willing to sign such a doc­
ument.” The defendant’s request for the $85,000
payment was further supported by his statement that
“I have approximately 5,000 pages of data at this point
in time and we are about to go into a heavy round of

App.73a
discovery procedures. I am hoping to avoid this by
settling the case soon.”
The defendant’s letter was a studied effort to
obtain funds by providing misleading information,
since the defendant nowhere stated therein what he
knew at the time: that Chicago Title was providing a
defense for the Jalberts in the Warren Enterprises liti­
gation, that the law firm of Cohen & Wolf had
appeared as counsel in that matter in lieu of the
defendant, and that he was no longer counsel of record
representing them. See Plff. Exh. 9, letter from Chicago
Title to defendant, dated March 8, 2007, tendering
defense to the Jalberts. Instead, the defendant stated
in the May 9, 2007 letter, “I have just been advised
that Chicago Title, who hired counsel a few months
ago, the day before the first court hearing, is not going
to pay prior legal fees, which decision I believe will be
overturned once I sue them.”
In his letter, the defendant did not advise that the
counsel hired by Chicago Title was representing the
plaintiffs. Instead, a reader of the letter reasonably
would be led to believe that the payment sought was
for the purpose of funding the defendant’s continued
representation of the Jalberts in the Warren Enter­
prises litigation in order to secure a settlement about
which Chicago Title was dragging its heels.
The evidence also does not establish that the
defendant provided legal services in connection with
the Warren Enterprises litigation which were worth a
payment of $85,000. The defendant did not engage in
discovery, such as taking or defending depositions, or
prepare witnesses, or prepare for trial, or represent the
Jalberts at trial. By comparison, Marcus, who repre-

App.74a

sented the Jalberts in the Warren Enterprises litiga­
tion for about one year, billed approximately $10,800
for his services. See Tr., March 13, 2013, pp. 52-53.
The defendant’s claimed legal work was unsupported
by contemporaneous time records, and he acknow­
ledged that it included an inordinate amount of time
reviewing deeds. ISteeTr., March 14, 2013, p. 102. The
court is unpersuaded by his assertions about the value
of and the extent of the legal work he claims to have
performed.
The court also finds unpersuasive the defendant’s
argument that Marcus’ testimony demonstrates that
the Jalberts “were fully aware that Chicago Title and
Attorney Neil Marcus were representing them.” See
defendant’s post-trial brief, p. 5. While Marcus testified
that, in March 2007, he told the Jalberts that he had
been retained by Chicago Title to represent them, he
also stated that they requested that he communicate
with them through the defendant. See Tr., March 13,
2013, pp. 73-75.
Significantly, Marcus explained that the defendant
asked that the defendant “be the filter between the
Jalberts and me.” See Tr., March 13, 2013, p. 47.
According to Marcus, the defendant told Marcus that
the Jalberts “were like family to him,” “[the defendant]
considered Mr. Jalbert to be like a brother,” but the
defendant “thought that they were not the brightest
people in the world and-he was not complimentary to
their abilities to grasp the concepts that I would have
to explain to them and he could explain them better.”
See Tr., March 13, 2013, p. 47. Pamela Jalbert testified
that the defendant told the Jalberts not to speak to
Marcus. See Tr., March 12, 2013, p. 85.

App.75a

Marcus also testified that, in March 2008, when
he was in the process of attempting to settle the
Warren Enterprises litigation, he realized that the
Jalberts did not understand that he was representing
them. Marcus stated that he received threatening
communications from the Jalberts. See Tr., March 13,
2013, pp. 101-102; defendant’s Exhibit I (email from
Pamela Jalbert to Marcus, dated April 12, 2008).
Marcus testified that, at some point, “I realized that
the communications weren’t working because the
Jalberts and Larry Mulligan were somewhat on the outs
at that point, and this brotherly love that I’d been led
to believe was a relationship had really turned nasty.”
See Tr., March 13, 2013, p. 101. He testified that he
had thought the Jalberts were aware that he was
defending them, “but apparently, they were not.” See
Tr., Mard 13, 2013, p. 101. Only after he spoke to them
directly did he learn that they were “somewhat
confused,” and they thought that the defendant was
representing them, until they had a falling out with
him. See Tr., March 13, 2013, pp. 101-102. Thus, while
Marcus initially informed the Jalberts about what his
role would be, they did not understand and continued
to rely on the defendant, who they thought was repre­
senting them and looking out for their interests.
Under these circumstances, Bruce Jalbert’s signa­
tures on the May 9, 2007 letter to American Guaranty
& Trust Company (Plff. Exh. 25) and the subsequent
letter of protection (Plff Exh. 26), authorizing a
distribution of monies from the trust, to be paid to the
defendant, are of no factual significance. The Jalberts
and the defendant previously had agreed to the barter
agreement concerning how the defendant was to be
compensated. It is evident that the Jalberts were

App.76a
misled by the defendant as to his role in connection
with the Warren Enterprises litigation. Where, as
here, Bruce Jalbert’s approval of the payment to the
defendant of monies received from the trust was based
on misleading conduct by the defendant, his signature
provides no support to the defendant’s factual conten­
tions. See Label Systems Corp. v. Aghamohammadi,
270 Conn. 291, 331 n.30, 852 A.2d 703 (2004) (conversion
where defendant secures possession “illegally or
tortuously, by fraud or other wrongful conduct” (Internal
quotation marks omitted)).
Similarly, the court credits the plaintiffs’ conten­
tion that their authorization of payment of $50,000 to
the defendant, from the Warren Enterprises litigation
settlement proceeds, was based on his misleading
conduct. If the plaintiffs had understood that Chicago
Title had been defending them, they would not have
agreed that the defendant was entitled to that sum. In
the May 14, 2007 letter of protection from the defend­
ant to Paul McNinch of American Guaranty & Trust
Company (Plff. Exh. 26), which was approved by Bruce
Jalbert, the defendant stated that the purpose of the
$85,000 advance from the trust was to pay legal fees
for the Warren Enterprises litigation. He also stated
that if “the first portion of the case,” meaning the
Warren Enterprises litigation, settled for $100,000, he
would be advancing $50,000 from his legal fees, and
refunding $50,000 to American Guaranty & Trust
Company at that time, and that an additional $35,000
would be refunded to make the trust whole after
successfully resolving the contemplated suit against
Chicago Title. After receiving the settlement funds
from the Warren Enterprises litigation, no refund to

App.77a
American Guaranty & Trust Company was made by
the defendant.
Instead, of the $100,000 received from the title
companies, the defendant retained $50,000 as a pay­
ment for his legal services. The plaintiffs received a
check in the amount of $23,500. See Plff. Exh. 42. This
reduced amount reflected a repayment to the defend­
ant of monies loaned for the purchase of a motorcycle
by Bruce Jalbert.
As discussed above, as Marcus testified, the
plaintiffs did not understand that Chicago Title had
provided representation for the Jalberts, by Cohen &
Wolf, for the Warren Enterprises litigation, in lieu of
the defendant. If the defendant had not misled them,
they would not have continued to believe that his legal
services were needed for that matter and would not
have agreed that he was entitled to be paid.
In addition, the court is unpersuaded that the
defendant’s bill for $69,738.90 to Chicago Title, dated
February 16, 2008 (Plff. Exh. 15) represents a reason­
able summary of the extent of his legal services or their
value. Rather, it contains a substantial inflating of the
time spent by the defendant on this matter. That bill
includes a list of services, including “15 meetings with
client regarding status of case and potential for
settlement; multiple telephone conversations with Neil
Marcus regarding potential for settlement;. . . multiple
telephone conversations with Tom Gugliotti [opposing
counsel].” In view of the fact that the defendant misled
the Jalberts concerning his representation of them, the
court is unpersuaded that such activities by the
defendant were warranted or that their extent was
accurately described.

App.78a
The defendant’s credibility, including his state­
ments made in documents related to billing, is under­
mined by his acknowledged back-dating of a retainer
agreement with the Jalberts. In his testimony, the
defendant stated that he prepared a retainer agreement
for the Jalberts to sign in March 2007 (Plff. Exh. 7), but
dated it in February 2005, more than two years
earlier. See Tr., March 12, 2013, pp. 134-35. He stated
that he did so “[blecause I felt it would be helpful to
have a memorialization of our agreement in the begin­
ning of the file for purposes of our ultimate claim
against Chicago Title.” See Tr., March 12, 2013, p. 135.
Although the document states that Bruce Jalbert signed
it in February 2005, the defendant testified that Bruce
Jalbert signed it in March 2007. See Tr., March 12,
2013, p. 135.
The defendant also testified that, at the time he
wrote this letter, he knew that Chicago Title had pro­
vided a defense for the Jalberts. See Tr., March 12,
2013, p. 137. The letter stated, in its first sentence,
“Chicago Title may not provide you with a defense
against the claims brought by Jean Elin to cross your
property.” This letter also does not mention the barter
agreement which was in effect when the defendant
wrote it. See Tr., March 13, 2013, pp. 10-11. According
to the defendant, he drafted the letter in March 2007
to be correct as of February 2005. His fabrication of
the document undermines the defendant’s credibility.
Other examples of misleading documents created
by the defendant also undermine his credibility and
his arguments about being entitled to be paid for legal
services. He prepared a letter addressed to the
Jalberts, dated May 30, 2007, in which he stated that
he “and his paralegal combined have in excess of 460

App.79a
hours at our regular rate per hour for my time and $55
dollars per hour for my paralegal’s time resulting in a
total more than $140,000 for my time and about
$25,000 for paralegal time and expenses to date.” See
Plff. Exh. 10. In the next paragraph, the defendant
stated that he and the Jalberts had “come to a reso­
lution for a flat fee of $130,000 for all legal fees to date,
and $25,000 for paralegal fees and expenses.” The last
sentence of this letter states, “I look forward to
receiving your first payment in this regard.”
At trial, the defendant testified that his paralegal
on the case was Pamela Jalbert. See Tr., March 13,
2013, p. 12. Thus, the letter was a bill to the Jalberts
which included charging them for Pamela Jalbert’s
own work. In contradiction to his own letter, the
defendant testified that “It was not my intention that
the Jalberts would be paying my legal fees out-ofpocket at any time.” See Tr., March 13, 2013, p. 13.
The court does not credit the statement in the letter
or the defendant’s trial testimony that an agreement
was reached for payment to the defendant of a flat fee.
The misleading statements in his May 30, 2007
letter were followed five days later by the defendant’s
June 4, 2007 letter and statement of account to the
Jalberts for professional services from February 19,
2005 to February 12, 2007. See Plff. Exhs. 11-12,
respectively.2

2 The defendant testified that both billing statements were sent
to the Jalberts. See Tr., March 13, 2013, p. 26; March 14, 2013,
pp. 28-29. However, the Jalberts testified that they did not see
billing statements from the defendant until after they com­
menced suit against him. As discussed, the defendant’s credibility

App.80a
In the June 4, 2007 letter, the defendant stated,
incredibly, that he reduced the total time reflected
since the fees were escalating “at a very rapid pace.”
The statement again billed for paralegal time. In
contrast to the May 30, 2007 letter, which billed for in
excess of 460 hours of attorney and paralegal time, the
June 4, 2007 statement billed for 877.75 hours of the
defendant’s time, an increase of over 410 hours. The
defendant stated that he did not have contemporane­
ous time records to support either amount; instead, he
leafed through the file and came up with a number. See
Tr., March 14, 2013, pp. 22-23. The defendant’s
testimony that both numbers were “reasonably accu­
rate,” Tr., March 14, 2013, p. 25, lacks credibility.
Similarly lacking in credibility is the sheer amount of
the bill, $209,445.97.
Under these circumstances, the plaintiffs’ expres­
sions to the effect that they wanted the defendant to
be paid (see Deft. Exh. I, April 12, 2008 email from
Pamela Jalbert to Marcus, complaining of “Chicago
Title [’]s unwillingness to honor their commitments”
and requesting payment of $69,000 to the defendant;
Deft. Exh. J, April 8, 2012 emails to defendant), and
their proposal of deeding a portion of their property to
him as a means of compensating him for legal services,
do not amount to admissions as to the value of the
defendant’s work for the Jalberts, or persuasive sup­
port for the defendant’s arguments of entitlement to
the funds at issue. Rather, like the payment from the
trust, they resulted from the defendant’s efforts to
mislead the plaintiffs.
and claims of entitlement to retain funds due to legal services
rendered are undermined by these documents.

App.81a

Likewise unpersuasive are the defendant’s refer­
ences to Pamela Jalbert’s May 6, 2008 email to the
defendant (Deft Exh. Q), concerning the defendant’s legal
bills and returning money to the trust. Due to the
defendant’s misleading conduct, at the time it was
written, she did not understand that Chicago Title had
been representing the Jalberts. Similarly, as Marcus
expressed in his testimony, at around this time, the
plaintiffs’ relationship with the defendant had dete­
riorated. The court is unpersuaded by the defendant’s
contentions that the plaintiffs’ demand for the return
of their money is evidence that the $85,000 had not
been provided in 2007 to show Chicago Title that the
Jalberts had paid the defendant, and was a payment
to the defendant for a fee to which he was entitled.
Similarly, the $50,000 which the defendant re­
ceived from the Warren Enterprises litigation settle­
ment also resulted from the defendant’s deceptive
conduct, in which he took advantage of his fiduciary
relationship with the plaintiffs, and their friendship.
By clear and convincing evidence, the plaintiffs
have proved that the defendant converted the $85,000
which he sought from the trust, which was paid to
him, and which he never returned. By clear and
convincing evidence, the court finds that the defendant
also converted the $50,000 from the Warren Enterprises
litigation settlement.
B.

Count Two-Statutory Theft

In count two of their complaint, the plaintiffs
allege that the defendant committed statutory theft in
violation of General Statutes § 52-564. “[Statutory
theft under ... § 52-564 is synonymous with larceny
[as defined in] General Statutes § 53a-119;. .. and the

App.82a
definition of larceny includes various fraudulent
methods of taking property from its owner.” (Citation
omitted; footnote omitted; internal quotation marks
omitted.) Stuart v. Stuart, 297 Conn. 26, 41, 996 A.2d
259 (2010). “Pursuant to § 53a-119, [a] person commits
larceny when, with intent to deprive another of prop­
erty or to appropriate the same to himself or a third
person, he wrongfully takes, obtains or [with[... ] holds]
such property from [the] owner.” (Internal quotation
marks omitted.) Hi-Ho Tower, Inc. v. Com-Tronics, Inc.,
255 Conn. 20, 44, 761 A.2d 1268 (2000). The standard
of proof applicable to statutory theft “is the prepon­
derance of the evidence standard.” Stuart v. Stuart,
supra, 297 Conn. 44.
“Statutory theft . . . requires an element over
and above what is necessary to prove conversion,
namely, that the defendant intentionally deprived
the complaining party of his or her property.” Mystic
Color Lab, Inc. v. Auctions Worldwide, LLC, supra,
284 Conn. 418-19.
As discussed above, the court has found the
defendant to be liable for conversion. The evidence is
also clear and convincing that the defendant inten­
tionally and wrongfully took and withheld $135,000
from the plaintiffs. The defendant intentionally misled
them concerning the $85,000 payment from the trust.
The defendant intentionally misled the plaintiffs into
believing that his services were needed to defend them
in the Warren Enterprises litigation, and that he was
entitled to be paid therefor, causing them also to agree
that he would receive $50,000 from the settlement. He
intentionally deprived them of those funds as well.See
Kosiorek v. Smigelski, 138 Conn. App. 695, 713-14, 54
A3d 564 (2012), cert, denied, 308 Conn. 901, 60 A.3d

App.83a
287 (2013) (wrongful withholding of amount of unrea­
sonable legal fee is evidence of statutory theft).
Accordingly, the court finds the defendant liable for
statutory theft.
C.

Count Three-CUTPA

The plaintiffs’ third count is premised on the
Connecticut Unfair Trade Practices Act, General
Statutes § 42-110a et seq. (CUTPA). “[General Statutes
§] 42-1 110b(a) provides that [n]o person shall engage
in unfair methods of competition and unfair or
deceptive acts or practices in the conduct of any trade
or commerce. It is well settled that in determining
whether a practice violates CUTPA we have adopted
the criteria set out in the cigarette rule by the federal
trade commission for determining when a practice is
unfair: (l) [W]hether the practice, without necessarily
having been previously considered unlawful, offends
public policy as it has been established by statutes, the
common law, or otherwise—in other words, it is within
at least the penumbra of some common law, statutory,
or other established concept of unfairness; (2) whether
it is immoral, unethical, oppressive, or unscrupulous;
(3) whether it causes substantial injury to consumers,
[competitors or other businesspersons]. . . . All three
criteria do not need to be satisfied to support a finding
of unfairness. A practice may be unfair because of the
degree to which it meets one of the criteria or because
to a lesser extent it meets all three. . . . Thus a vio­
lation of CUTPA may be established by showing either
an actual deceptive practice ... or a practice amounting
to a violation of public policy. ... In order to enforce
this prohibition, CUTPA provides a private cause of
action to [a]ny person who suffers any ascertainable
loss of money or property, real or personal, as a result

App.84a
of the use or employment of a [prohibited] method, act
or practice ...(Internal quotation marks omitted.)
Harris v. Bradley Memorial Hospital & Health Center,
Inc., 296 Conn. 315, 350-51, 994 A.2d 153 (2010). The
plaintiffs’ burden of proof as to their CUTPA claim is
by the preponderance of the evidence. See Stuart v.
Stuart, supra, 297 Conn. 38.
“In Heslin v. Connecticut Law Clinic of Trantolo
& Trantolo, 190 Conn. 510, 520-21, 461 A.2d 93 8
(1983), our Supreme Court concluded that not all
aspects relating to the conduct of the profession of law
were excluded from the purview of CUTPA. More
recently, we explained: ‘In general, CUTPA applies to
attorney conduct, but only as to the entrepreneurial
aspects of legal practice.’” Kosiorek v. Smigelski,
supra, 138 Conn. App. 711-12.
“[T]he most significant question in considering a
CUTPA claim against an attorney is whether the
allegedly improper conduct is part of the attorney’s
professional representation of a client or is part of the
entrepreneurial aspect of practicing law.” Suffield
Development Associates Ltd Partnership v. National
Loan Investors, LP., 260 Conn. 766, 781, 802 A.2d 44
(2002). The “entrepreneurial” exception is applicable,
for example, to an attorney’s advertising, billing, bill
collection, and solicitation of business. See id, 782.
In Kosiorek v. Smigelski, supra, 138 Conn. App.
712, there was evidence that the defendant attorney
“failed to provide [his client] with the entire fee
agreement or to explain the nature of the contingency
agreement at the time it was executed. Additionally,
there was evidence that the defendant had not kept
accurate time records, paid himself an unreasonable
fee and refused to return the disallowed fee to the

App.85a
estate.” Such evidence “related to the entrepreneurial
aspects of legal practice” and was properly submitted
for the jury’s consideration of the CUTPA claim. Id.
As discussed above, the court has found the
defendant to be liable for conversion and civil theft of
the $85,000 which he received from the trust, and of
the $50,000 he received from the settlement of the
Warren Enterprises litigation, both ostensibly for
legal fees, as a result of his misleading conduct. The
entrepreneurial exception is applicable to both sums,
as these damages related to the defendant’s fee
agreement with the Jalberts, and were unreasonable
fees which he received but did not return. Such conduct
violated CUTPA in that it was unfair, immoral, un­
ethical, oppressive, and unscrupulous, and the plaintiffs
suffered ascertainable losses of money as a result.3
In addition, pursuant to the barter agreement,
the defendant received the value of Bruce Jalbert’s
construction services, in the amount of $84,750. See
Plff Exh. 17. The value of these services was not
disputed at trial.
The defendant acknowledges that he had a barter
agreement with Bruce Jalbert. See defendant’s post­
trial brief, p. 11. However, he disagrees with the plain-

3 The defendant argues that the claim concerning the $50,000
payment is not included in the count three’s allegations of CUTPA
violations. However, count three incorporates by reference the
allegations of count two. See count three, H 1. In count two, which
alleges that the defendant is liable for civil theft, paragraph 7k of
count one, which states that the defendant “received $100,000 in
settlement funds in the litigation, but only returned $50,000 to
Plaintiffs,” is incorporated by reference.

App.86a
tiffs contentions as to its terms and whether it contin­
ued until the settlement of the Warren Enterprises
litigation.
Under the barter agreement, the defendant agreed
to pay for Bruce Jalbert’s construction services if
Chicago Title provided a defense to the Jalberts. Tr.,
March 12, 2013, pp. 24-25. As discussed above, the
defendant misled the plaintiffs so that they were not
aware that Marcus was defending them on behalf of
Chicago Title.
The court credits the plaintiffs’ contentions that
the barter agreement involved an exchange of services
based on hours expended, without, as contended by
the defendant, adjustment by an hourly rate differential
which recognized that the defendant’s hourly rates
were considerably higher than Bruce Jalbert’s hourly
rates. This was an arrangement between close friends,
where the defendant previously had represented the
plaintiffs in the purchase of their home, when they
obtained the title insurance recommended by the
defendant.
The defendant argues that the barter agreement
did not continue to the end, asserting that, if it had
continued, then Bruce Jalbert would not have ques­
tioned the fees for the defendant’s work which were
being accumulated, would not have wondered how he
was going to pay the defendant’s bills, and would not
have offered to pay the defendant from a sale of a
parcel of their property to the defendant at a reduced
price. See defendant’s post-trial brief, pp. 12-14.
The evidence before the court shows that the
plaintiffs, who were not as well-educated as the
defendant, an attorney, were misled by the defendant,

App.87a
who, at the time of the events at issue, was their
friend, attorney and fiduciary. It is evident that he
misled them to believe that Chicago Title was not pro­
viding a defense and that he had expended vast hours
on their behalf in their defense, so that they were
under the belief that what Bruce Jalbert provided by
way of construction services was far less than what
was provided by the defendant. See Tr., March 14,
2013, pp. 146, 160 (Bruce Jalbert testimony that, al­
though the defendant had not presented a bill, defend­
ant had worked for a number of years and every time he
spoke to the plaintiffs the dollar amount would go up
exponentially, so that eventually they were told that
the defendant had “invested” up to $400,000, leading
to concern that Jalberts would have to sell their house).
The defendant never paid for Bruce Jalbert’s con­
struction services. As a result, the plaintiffs’ suffered
an additional ascertainable loss of $84,750. The entre­
preneurial exception is applicable to this sum also, as
these damages related to the defendant’s fee agreement
with the Jalberts, and amounted to unreasonable fees
which he received but did not earn by providing legal
services in exchange therefor. This conduct also
violated CUTPA in that it was unfair, immoral, unethi­
cal, oppressive, and unscrupulous.

D. Fraud
The plaintiffs’ fraud claims are based on conduct
which is discussed above. “The essential elements of
an action in fraud, as we have repeatedly held, are: (l)
that a false representation was made as a statement of
fact; (2) that it was untrue and known to be untrue by
the party making it; (3) that it was made to induce the
other party to act on it; and (4) that the latter did so

App.88a
act on it to his injury.” (Internal quotation marks
omitted.) Updike, Kelly & Spellacy, P.C. v. Beckett,
269 Conn. 613, 643, 850 A.2d 145 (2004). “A party
alleging fraudulent misrepresentation must prove the
existence of the first three of [the] elements by a stan­
dard higher than the usual fair preponderance of the
evidence, which higher standard we have described as
clear and satisfactory or clear, precise and unequivo­
cal.” (Internal quotation marks omitted.) Wallenta v.
Moscowitz, 81 Conn. App. 213, 220, 839 A.2d 641, cert,
denied, 268 Conn. 909, 845 A.2d 414 (2004). “‘Clear and
satisfactory’ evidence is the equivalent to ‘clear and
convincing’ evidence.” (Internal quotation marks omit­
ted.) Id.
“Although the general rule is that a misrepre­
sentation must relate to an existing or past fact, there
are exceptions to this rule, one of which is that a
promise to do an act in the future, when coupled with a
present intent not to fulfil the promise, is a false rep­
resentation.” Paiva v. Vanech Heights Construction Co.,
159 Conn. 512, 515, 271 A.2d 69 (1970).
In their post-trial memorandum, the plaintiffs
seek damages for fraud for three separate claimed
fraudulent representations. Two of these relate to
promises by the defendant to do acts in the future.
They contend that he falsely informed them that if
they transferred $135,000 to him, he would return the
funds at the end of the litigation ($85,000 from the
trust and $50,000 from the settlement). They also
contend that, by falsely informing the plaintiffs that
Chicago Title had refused to defend their interests,
the defendant fraudulently induced Bruce Jalbert to
perform labor for the defendant’s benefit, without

App.89a

compensation. See plaintiffs’ post-trial memorandum,
pp. 29-30.
As to the first two, the allegation concerning the
payment from the trust is pleaded as a promise. See
count four, If 22d. The court is unpersuaded that the
plaintiffs have proved that the defendant had a
present intent not to fulfill the promise when it was
made. As to the second, the allegation concerning the
$50,000 not returned from the settlement is not pleaded
as a fraudulent misrepresentation. See count four,
1} 7k. “The plaintiff cannot recover upon a cause of
action not alleged in its complaint.” United Construction
Corporation v. Beacon Construction Co., 147 Conn.
492, 496, 162 A.2d 707 (i960).
Concerning the third fraud claim, the plaintiffs
did not allege in the fourth count that the defendant
falsely informed them that Chicago Title had refused
to defend them, when that was untrue and he knew it
to be untrue. Rather, they alleged that the defendant
represented that he would accept payment in kind from
Bruce Jalbert, but later represented he would not. As
stated above, the plaintiffs may not recover on a claim
which was not pleaded.
E.

Larceny by False Pretenses

In count five, based on the same allegations, all of
which are incorporated by reference, the plaintiffs
claim that the defendant is liable for larceny by false
pretenses.4 The court discussed the elements of

4 In the defendant’s post-trial brief, page 3, he argues, citing
Practice Book§ 10-3, that count five does not allege a statute. Any
such contention was waived. See Thompson & Peck, Inc. v.

App.90a
larceny above in part B concerning statutory theft.
“The elements that the plaintiffs must prove to obtain
treble damages under the civil theft statute, § 52-564,
are the same as the elements required to prove larceny,
pursuant to General Statutes § 53a-119. Deming v.
Nationwide Mutual Ins. Co., 279 Conn. 745, 770-71,
905 A.2d 623 (2006).” Sullivan v. Delisa, 101 Conn. App.
605, 619-20, 923 A.2d 760, cert, denied, 283 Conn. 908,
928 A.2d 540 (2007).
The same analysis is applicable to count five. The
evidence is clear and convincing that the defendant is
liable for the $135,000 which he intentionally and
wrongfully obtained and withheld from the plaintiffs.
F.

Damages, Interest, and Attorney’s Fees

As discussed above, as to counts one and two, for
conversion and civil theft, the plaintiffs have proved
that they suffered actual damages in the total amount
of $135,000 ($85,000 plus $50,000). The court is un­
persuaded by the defendant’s argument (see defend­
ant’s post-trial brief, p. 21) that the $23,500 paid to
the Jalberts from the Warren Enterprises litigation
settlement reduces their claim concerning the $85,000.
As discussed above, the repayment to the defendant of
funds loaned for the purchase of a motorcycle by Bruce
Jalbert were deducted from the $50,000 which otherwise
would have been paid to the plaintiffs from the
$100,000 received from the title companies as part of
the settlement of the Warren Enterprises litigation.

Harbor Marine Contracting Corp., 203 Conn. 123, 132, 523 A.2d
1266 (1987).

App.91a
As to count two, the plaintiffs seek treble damages
pursuant to General Statutes § 52-564, for the defend­
ant’s conversion of $135,000. As discussed above, § 52564 provides, “Any person who steals any property of
another, or knowingly receives and conceals stolen
property, shall pay the owner treble his damages.”
Under this mandatory language, where liability is
found, the damages are to be trebled. See Stuart v.
Stuart, supra, 297 Conn. 53 n.14 (§ 52-564 contains
mandatory language). Accordingly, as to count two,
concerning statutory theft, the plaintiffs are awarded
treble damages, $405,000 ($135,000 x 3).
The plaintiffs also seek an award of prejudgment
interest pursuant to General Statutes § 37-3a, which
provides, in relevant part, “interest at the rate of ten
per cent a year, and no more, may be recovered and
allowed in civil actions .. ., as damages for the deten­
tion of money after i becomes payable.” A decision con­
cerning “whether to grant interest under § 37-3a is
primarily an equitable determination . . . .” Sosin v.
Sosin, 300 Conn. 205, 227, 14 A.3d 307 (2011). “[P]rejudgment interest is awarded in the discretion of the
trial court to compensate the prevailing party for a
delay in obtaining money that rightfully belongs to
him.” (Internal quotation marks omitted.) Northrop v.
Allstate Ins. Co., 247 Conn. 242, 254-55, 720 A.2d 879
(1998).
“A trial court must make two determinations when
awarding compensatory interest under§ 37-3a: (l)
whether the party against whom interest is sought
has wrongfully detained money due the other party;
and (2) the date upon which the wrongful detention
began in order to determine the time from which inter­
est should be calculated.” Blakeslee Arpaia Chapman,

App.92a
Inc. v. El Constructors, Inc., 239 Conn. 708, 735, 687
A.2d 506 (1997).
“[T]he court’s determination [as to whether interest
should be awarded under§ 37-3a] should be made in
view of the demands of justice rather than through the
application of any arbitrary rule. . . . Whether interest
may be awarded depends on whether the money
involved is payable ... and whether the detention of
the money is or is not wrongful under the circum­
stances.” (Internal quotation marks omitted.) Sosin v.
Sosin, supra, 300 Conn. 229. The term “wrongful” “has
been construed to mean ‘without.. . legal right. .. .’”
id., 244 n.25. A finding of wrongfulness under § 37-3a
“does not require the trial court to assess blame­
worthiness . . . .” Id.
“[T]he primary purpose of § 37-3a ... is riot to
punish persons who have detained money owed to
others in bad faith but, rather, to compensate parties
that have been deprived of the use of their money.”
(Footnote omitted.) Id., 230. Even where money is with­
held on the basis of a good faith belief by a party that
he was entitled thereto, “the trial court [is] not fore­
closed from awarding interest pursuant to§ 37-3a.” Id.
“[A]n interest award is limited to cases in which
the damage is of a sort [that] could reasonably be
ascertained by due inquiry and investigation on the
date from which the interest is awarded.” (Internal
quotation marks omitted.) Id., 234-35.
Where liability has been found pursuant to General
Statutes § 52-564, the Appellate Court has affirmed
trebling the prejudgment interest awarded. “Prejudg­
ment interest on money wrongfully withheld from the
owner is a proper, albeit discretionary, element of a

App.93a
plaintiffs damages.... General Statutes 52-564 provides
that if the defendant stole the plaintiffs property, he
‘shall pay the owner treble his damages.’ We see no
reason to carve out of those damages, as a matter of
law, the prejudgment interest element for the benefit
of a defendant who has been found liable pursuant to
General Statutes 52-564.” (Citation omitted.) Lauder
v. Peck, 11 Conn. App. 161,167-68, 526 A.2d. 539 (1987).
As discussed above, the court has found that the
defendant is liable for conversion and civil theft
concerning the $85,000 from the trust and the $50,000
from the Warren Enterprises litigation settlement.
His retention of those monies was wrongful. In the
exercise of its discretion, an award of prejudgment
interest, to compensate the plaintiffs for the delay in
obtaining money that rightfully belongs to them, is
appropriate.
Although the plaintiffs contend that Bruce Jalbert
transferred the $85,000 from the trust to the defendant
on May 31, 2007 and interest should be awarded there­
on from that date, they also acknowledge that they
expected that those funds would be returned at the
end of the Warren Enterprises litigation. See plain­
tiffs post-trial memorandum, p. 34. As to the $50,000
from the settlement, they contend that interest should
be awarded from March 27, 2008, the date when the
settlement funds were transferred. See Plff Exh. 36.
The court finds that interest should be awarded from
March 27, 2008 on both sums.
Accordingly, pursuant to § 37-3a, the court awards
treble interest, at the rate of 10 per cent per annum,
from March 27, 2008, for the defendant’s wrongful
detention of $135,000.

App.94a
As to count three, as discussed above, the court
has found that the defendant is liable and that the
plaintiffs proved ascertainable losses in the total
amount of $219,750, including $84,750 for Bruce
Jalbert’s construction services. Prejudgment interest
at the statutory rate of ten per cent (10%) is awarded.
As discussed above, under the barter agreement, the
defendant agreed to pay for Bruce Jalbert’s work if
Chicago Title provided a defense. After the defense
was provided, the defendant’s failure to pay for the
construction services was wrongful. It is unclear when
each project was completed, but the work was done
between 2005 and 2007. Marcus filed his appearance
to defend the Jalberts in March 2007. Interest on the
$84,750 is awarded from January 1, 2008. By that
date, all of the construction work had been done.
Also as to count three, the plaintiffs seek awards
of attorneys fees and punitive damages. Pursuant to
General Statutes § 42-110g(a)5 and (d)6, a prevailing
5 Section 42-110g(a) provides, “Any person who suffers any
ascertainable loss of money or property, real or personal, as a
result of the use or employment of a method, act or practice
prohibited by section 42-110b, may bring an action in the judicial
district in which the plaintiff or defendant resides or has his prin­
cipal place of business or is doing business, to recover actual
damages. Proof of public interest or public injury shall not be re­
quired in any action brought under this section. The court may,
in its discretion, award punitive damages and may provide such
equitable relief as it deems necessary or proper.”
6 General Statutes § 42-110(d) provides, in pertinent part, “In
any action brought by a person under this section, the court may
award, to the plaintiff, in addition to the relief provided in this
section, costs and reasonable attorneys fees based on the work
reasonably performed by an attorney and not on the. amount of
recovery.”

App.95a
plaintiff in a CUTPA action may be awarded punitive
damages and reasonable attorneys fees.
“A court may exercise its discretion to award
punitive damages to a party who has suffered any
ascertainable loss pursuant to CUTPA. See General
Statutes § 42-110g(a). In order to award punitive or
exemplary damages, evidence must reveal a reckless
indifference to the rights of others or an intentional
and wanton violation of those rights. . . . [A]warding
punitive damages and attorneys fees under CUTPA is
discretionary. . . . Further, [i] t is not an abuse of dis­
cretion to award punitive damages based on a multiple
of actual damages.” (Citations omitted; internal quota­
tion marks omitted.) Votta v. American Car Rental'
Inc., 273 Conn. 478, 485-86, 871 A.2d 981 (2005).
Here, as discussed above, under General Statutes
§ 52-564, the legislature has provided for treble dam­
ages and the court has awarded them. In addition, the
court has trebled the award for prejudgment interest.
In the exercise of its discretion, since treble damages
are awarded, and, as discussed below, attorneys fees
are warranted also, the court declines to award
punitive damages. See Kosiorek v. Smigelski, supra,
138 Conn. App. 712 n.16 (trial court declined to award
punitive damages in addition to treble damages and
attorneys fees).
“The public policy underlying CUTPA is to
encourage litigants to act as private attorneys general
and to engage in bringing actions that have as their
basis unfair or deceptive trade practices. ... In order
to encourage attorneys to accept and litigate CUTPA
cases, the legislature has provided for the award of
attorney’s fees and costs.... [T]he amount of attorney’s
fees that the trial court may award is based on the

App.96a
work reasonably performed by an attorney and not on
the amount of recovery. .. . Once liability has been
established under CUTPA, attorney’s fees and costs
may be awarded at the discretion of the court.”
(Citations omitted; internal quotation marks omitted.)
Carrillo v. Goldberg, 141 Conn. App. 299, 316-17, 61
A.3d 1164 (2013).
In the exercise of its discretion, the court will
award attorney’s fees. By June 26, 2013, the plaintiffs
may file a motion for a supplemental judgment of
attorneys fees and expenses with a detailed affidavit
of attorneys fees and expenses. Any response thereto
by the defendant shall be filed by July 10, 2013.
Thereafter, the court will schedule a hearing on the
award of attorneys fees and costs.7
“[A] plaintiff may be compensated only once for
his just damages for the same injury.” (Internal quo­
tation marks omitted.) Mahon v. B. VUnitron Mfg., Inc.,
284 Conn. 645,661, 935 A.2d 1004 (2007). “[T]he rule
precluding double recovery is a simple and timehonored maxim that [a] plaintiff may be compensated
only once for his just damages for the same injury.
. . . Connecticut courts consistently have upheld and
endorsed the principle that a litigant may recover just
damages for the same loss only once. The social policy
behind this concept is that it is a waste of society’s
economic resources to do more than compensate an
7 Although the plaintiffs seek an award of attorneys fees under
each count, they presented argument for an award of attorneys
fees only as to count three, the CUTPA count. Accordingly, the
court does not consider whether, having prevailed on other
counts, the plaintiffs are entitled to attorneys fees awards under
those counts. See Connecticut Coalition Against Millstone v.
Connecticut Siting Council, 286 Conn. 57, 87, 942 A.2d 345 (2008).

App.97a

injured party for a loss and, therefore, that the judicial
machinery should not be engaged in shifting a loss in
order to create such an economic waste.” (Internal
quotation marks omitted.) Id., 663.
Accordingly, although the plaintiffs also have pre­
vailed on count five, and damages are awarded in the
principal amount of $135,000 ($85,000 plus $50,000)
on this count, the same losses are at issue as discussed
above. The plaintiffs may not recover for the same loss
more than once. As set forth below, the court itemizes
the damages awarded.
III. Conclusion
For the reasons stated above:
1. Judgment may enter for the plaintiffs and
against the defendant on counts one, two, three and
five. Judgment may enter for the defendant and
against the plaintiffs on count four.
2. Damages are awarded to the plaintiffs on
counts one and five in the amount of $135,000. As to
count two, trebled damages are awarded in the amount
of $405,000. Trebled interest is awarded also, in the
amount of $210,953.97.8
3. Damages are awarded to the plaintiffs on
count three in the amount of $219,750. Prejudgment

8 Calculated at the rate of ten per cent (10%) per annum, from
March 27, 2008. The per diem rate is $36.99 ($135,000 x .10 divided
by 365), which, trebled, equals $110. 97 per day. $110.97 x 1901
days equals $210,952.97.

App.98a

interest is awarded as to $84,750 of this amount, in
the amount of $46,138.14.9
4. Eliminating duplicative damage awards results
in total damages awarded as follows:
$615,953.97 (including trebled interest) plus
$130,888.14 (including interest):
Total Damages: $746,842.11.
5. By June 26, 2013, the plaintiffs may file a
motion for a supplemental judgment attorneys fees
and expenses with a detailed affidavit of attorneys fees
and expenses. Any response thereto by the defendant
shall be filed by July 10, 2013. Thereafter, the court
will schedule a hearing concerning the motion.
It is so ordered.
BY THE COURT
/s/ Robert B. Shapiro______
Judge of the Superior Court

9 Calculated at the rate of ten per cent (10%) per annum, from
January 1, 2008. The per diem rate is $23.22 ($84,750 x .10 divided
by 365). $23.22 x 1987 days equals $46,138.14.

App.99a
ORDER OF THE SECOND CIRCUIT
DENYING PETITION FOR REHEARING
(APRIL 15, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
IN RE: LAWRENCE R. MULLIGAN,
RENEE T. MULLIGAN,
Debtors.

LAWRENCE R. MULLIGAN,
Deb tor-Appellan t.
v.

BRUCE K. JALBERT, PAMELA JALBERT,
Appellees.
Docket No: 18-1657
Appellant, Lawrence R. Mulligan, filed a petition
for panel rehearing, or, in the alternative, for rehear­
ing en banc. The panel that determined the appeal has
considered the request for panel rehearing, and the
active members of the Court have considered the
request for rehearing en banc.

App.lOOa
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
/s/ Catherine O’Hagan Wolfe
Clerk

App.lOla
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
Article IV of the United States Constitution, § 1
Full faith and credit shall be given in each state
to the public acts, records, and judicial pro­
ceedings of every other state. And the Congress
may by general laws prescribe the manner in
which such acts, records, and proceedings shall be
proved, and the effect thereof.
28 U.S.C. § 1738
The Acts of the legislature of any State, Territory,
or Possession of the United States, or copies
thereof, shall be authenticated by affixing the seal
of such State, Territory or Possession thereto.
The records and judicial proceedings of any court
of any such State, Territory or Possession, or
copies thereof, shall be proved or admitted in
other courts within the United States and its
Territories and Possessions by the attestation of
the clerk and seal of the court annexed, if a seal
exists, together with a certificate of a judge of the
court that the said attestation is in proper form.
Such Acts, records and judicial proceedings or copies
thereof, so authenticated, shall have the same
full faith and credit in every court within the
United States and its Territories and Possessions
as they have by law or usage in the courts of such
State, Territory or Possession from which they
are taken. (June 25, 1948, ch. 646, 62 Stat. 947.)

App.l02a

It is now well established that... a federal court
must give the same “full faith and credit” to . . .
judicial proceedings of any state court that they
would receive in the state from which they arise.
28U.S.C. Sec. 1738. Gjellum v. City ofBirmingham,
Ala., 829 F.2d 1056, (llth Cir. 1987), Thomas v.
Washington Gas Light Co., 448 U.S. 261, 270,100
S.Ct. 2647, 65 L.Ed.2d 757, (1980).
5th Amendment to the United States Constitution
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a present­
ment or indictment of a grand jury, except in
cases arising in the land or naval forces, or in the
militia, when in actual service in time of war or
public danger; nor shall any person be subject for
the same offense to be twice put in jeopardy of life
or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived
of life, liberty, or property, without due process of
law; nor shall private property be taken for public
use, without just compensation.
14th Amendment to the United States Constitution. § 1.
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state
wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty,
or property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.

App.l03a

11 U.S.C. § 523(a)(4)
(a) A discharge under section 727, 1141, 1228(a),
1228(b), or 1328(b) of this title does not dis­
charge an individual debtor from any debt. . .
(4) for fraud or defalcation while acting in a
fiduciary capacity, embezzlement, or larceny.
28 U.S.C. § 1254(1)
Cases in the courts of appeals may be reviewed by
the Supreme Court by the following methods:
(1)
By writ of certiorari granted upon the petition of
any party to any civil or criminal case, before or
after rendition of judgment or decree;
(2)
By certification at any time by a court of appeals
of any question of law in any civil or criminal case
as to which instructions are desired, and upon
such certification the Supreme Court may give
binding instructions or require the entire record
to be sent up for decision of the entire matter in
controversy.
28 U.S.C. § 1334(b)
(b) Except as provided in subsection (e)(2), and
notwithstanding any Act of Congress that confers
exclusive jurisdiction on a court or courts other
than the district courts, the district courts shall
have original but not exclusive jurisdiction of all

App.l04a

civil proceedings arising under title 11, or arising
in or related to cases under title 11.
(c)
(1) Except with respect to a case under chapter
15 of title 11, nothing in this section prevents
a district court in the interest of justice, or in
the interest of comity with State courts or
respect for State law, from abstaining from
hearing a particular proceeding arising under
title 11 or arising in or related to a case
under title 11.
(2) Upon timely motion of a party in a pro­
ceeding based upon a State law claim or
State law cause of action, related to a case
under title 11 but not arising under title'll
or arising in a case under title 11, with
respect to which an action could not have
been commenced in a court of the United
States absent jurisdiction under this section,
the district court shall abstain from hearing
such proceeding if an action is commenced,
and can be timely adjudicated, in a State
forum of appropriate jurisdiction.
(d) Any decision to abstain or not to abstain made
under subsection (c) (other than a decision not to
abstain in a proceeding described in subsection
(c)(2)) is not reviewable by appeal or otherwise by
the court of appeals under section 158(d), 1291, or
1292 of this title or by the Supreme Court of the
United States under section 1254 of this title.
Subsection (c) and this subsection shall not be
construed to limit the applicability of the stay
provided for by section 362 of title 11, United

App.l05a

States Code, as such section applies to an action
affecting the property of the estate in bankruptcy.
(e) The district court in which a case under title 11
is commenced or is pending shall have exclusive
jurisdiction—
(1) Of all the property, wherever located, of the
debtor as of the commencement of such case,
and of property of the estate; and
(2) over all claims or causes of action that involve
construction of section 327 of title 11, United
States Code, or rules relating to disclosure
requirements under section
28 U.S.C. § 157(b)
(b)
(1) Bankruptcy judges may hear and determine
all cases under title 11 and all core proceed­
ings arising under title 11, or arising in a
case under title 11, referred under subsection
(a) of this section, and may enter appropriate
orders and judgments, subject to review under
section 158 of this title.
(2) Core proceedings include, but are not limited
to—
(A) Matters concerning the administration
of the estate;
(B) allowance or disallowance of claims against
the estate or exemptions from property
of the estate, and estimation of claims or
interests for the purposes of confirming
a plan under chapter 11,12, or 13 of title
11 but not the liquidation or estimation

App.l06a

of contingent or unliquidated personal
injury tort or wrongful death claims
against the estate for purposes of distrib­
ution in a case under title 11;
(C) counterclaims by the estate against
persons filing claims against the estate;
(D) Orders in respect to obtaining credit;
(E) orders to turn over property of the estate;
(F) Proceedings to determine, avoid, or
recover preferences;
(G) Motions to terminate, annul, or modify
the automatic stay;
(H) Proceedings to determine, avoid, or
recover fraudulent conveyances;
(I)

determinations as to the dischargeability
of particular debts;

(J) Objections to discharges;
(K) Determinations of the validity, extent,
or priority of liens;
(L) Confirmations of plans;
(M) Orders approving the use or lease of prop­
erty, including the use of cash collateral;
(N) Orders approving the sale of property
other than property resulting from claims
brought by the estate against persons
who have not filed claims against the
estate;
(O) Other proceedings affecting the liquid­
ation of the assets of the estate or the

App.l07a
adjustment of the debtor-creditor or the
equity security holder relationship, except
personal injury tort or wrongful death
claims; and
(P) Recognition of foreign proceedings and
other matters under chapter 15 of title
11.
(3) The bankruptcy judge shall determine, on
the judge’s own motion or on timely motion
of a party, whether a proceeding is a core
proceeding under this subsection or is a
proceeding that is otherwise related to a case
under title 11. A determination that a proceed­
ing is not a core proceeding shall not be made
solely on the basis that its resolution may be
affected by State law.
(4) Non-core proceedings under section 157(b)
(2)(B) of title 28, United States Code, shall
not be subject to the mandatory abstention
provisions of section 1334(c)(2).
(5) The district court shall order that personal
injury tort and wrongful death claims shall
be tried in the district court in which the
bankruptcy case is pending, or in the district
court in the district in which the claim arose,
as determined by the district court in which
the bankruptcy case is pending.

Supreme Court
PRESS

